App. A-1
Case: 19-36061, 07/13/2020, ID: 11750756, DktEntry: 4, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
JUL 13 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

19-36061

3:17-cv-00690-BR
3:12-cr-00538-BR-2
District of Oregon,
Portland
D.C. Nos.

ANGELEDITH SARAMAYLENE SMITH,
ORDER
Defendant-Appellant.
Before:

SILVERMAN and COLLINS, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 3) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

App. B-1
Case 3:12-cr-00538-BR

Document 334

Filed 10/17/19

Page 1 of 1

App. C-1
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 1 of 59

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

UNITED STATES OF AMERICA,

3:12-cr-00538-BR
(3:17-cv-00690-BR)

Plaintiff,
OPINION AND ORDER
v.
ANGELEDITH SARAMAYLENE SMITH,
Defendant.

BILLY J. WILLIAMS
United States Attorney
CRAIG J. GABRIEL
Assistant United States Attorney
1000 S.W. Third Avenue, Suite 600
Portland, OR 97204
(503) 727-1107
Attorneys for Plaintiff
KENDRA M. MATTHEWS
Boise Matthews LLP
Sixth+Main
1050 S.W. Sixth Avenue
Suite 1400
Portland, OR 97204-1174
(503) 228-0487
Attorneys for Defendant
1

- OPINION AND ORDER

App. C-2
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 2 of 59

BROWN, Senior Judge.
This matter comes before the Court on Defendant Angeledith
Saramaylene Smith’s First Amended Motion (#283) Under 28 U.S.C.
§ 2255 to Vacate, Set Aside or Correct Sentence by A Person in
Federal Custody.

For the reasons that follow, the Court DENIES

Defendant’s Motion and DECLINES to issue a Certificate of
Appealability.

BACKGROUND
On October 11, 2012, Defendant Angeledith Saramaylene Smith
and Tana Chris Lawrence were charged in an Indictment with Murder
in the First Degree.

Specifically, the Indictment alleged on

September 29, 2012, Smith and Lawrence “with malice aforethought,
did unlawfully kill Faron Lynn Kalama . . . in the perpetration
of, or in the attempt to perpetrate, kidnapping, aggravated
sexual abuse, sexual abuse, and burglary” in violation of 18
U.S.C. §§ 1111, 1201 (a)(2), 224l(a), 2242 and Oregon Revised
Statutes § 164.225.
On November 6, 2012, Smith and Lawrence were charged in a
Superseding Indictment with Murder in the First Degree on the
same grounds as those stated in the initial Indictment.
On September 16, 2013, Smith filed a Motion to Dismiss the
Superseding Indictment on various grounds including that the
Oregon burglary statute is not a permissible predicate for felony
2

- OPINION AND ORDER

App. C-3
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 3 of 59

murder charged under 18 U.S.C. §§ 1111 and 1153.
On October 17, 2013, Smith and Lawrence were charged in a
Second Superseding Indictment with two counts of Murder in the
First Degree.

Count One alleged on September 29, 2012, Smith and

Lawrence
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, Burglary in the First
Degree, in violation of Oregon Revised Statute
164.225, that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully and knowingly enter and remain in
a dwelling located at 2237 Elliot Heights,
Warm Springs, Oregon, with intent to commit a
crime therein, that is, Assault With A
Dangerous Weapon With Intent To Do Bodily
Harm, in violation of 18 U.S.C. § 113(a)(3);
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
Count Two alleged on September 29, 2012, Smith and Lawrence
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, kidnapping, in
violation of 18 U.S.C. § 120l(a)(2), that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully seize, confine, kidnap, abduct,
and carry away Faron Lynn Kalama and held her
for a benefit;
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
On November 1, 2013, the government filed its Response to
Smith’s Motion to Dismiss and advised the Court that Smith’s
objections to the Superseding Indictment had been resolved by the

3

- OPINION AND ORDER

App. C-4
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 4 of 59

Second Superseding Indictment except for Smith’s assertion that
the Oregon burglary statute is not a permissible predicate for
felony murder charged under 18 U.S.C. §§ 1111 and 1153.
On November 14, 2013, the Court entered an Order in which it
noted the parties had advised the Court that Smith’s Motion to
Dismiss the Superseding Indictment was moot.

The Court,

therefore, set a briefing schedule for any motions against the
Second Superseding Indictment.
Also on November 14, 2013, Smith and Lawrence were charged
in a Third Superseding Indictment with three counts of Murder in
the First Degree.

Count One alleges on September 29, 2012, Smith

and Lawrence
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, Burglary in the First
Degree, in violation of Oregon Revised Statute
164.225, that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully and knowingly enter and remain in
a dwelling located at 2237 Elliot Heights,
Warm Springs, Oregon, with intent to commit a
crime therein, that is, Assault With A
Dangerous Weapon With Intent To Do Bodily
Harm, in violation of 18 U.S.C. § 113(a)(3);
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
Count Two alleges on September 29, 2012, “at a time separate and
subsequent to the offense described in Count 1,” Smith and
Lawrence
with malice aforethought, did unlawfully kill
4

- OPINION AND ORDER

App. C-5
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 5 of 59

Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, Burglary in the First
Degree, in violation of Oregon Revised Statute
164.225, that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully and knowingly enter and remain in
a dwelling located at 2237 Elliot Heights,
Warm Springs, Oregon, with intent to commit a
crime therein, that is, Assault With A
Dangerous Weapon With Intent To Do Bodily
Harm, in violation of 18 U.S.C. § 113(a)(3);
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
Count Three alleges on September 29, 2012, Smith and Lawrence
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, kidnapping, in
violation of 18 U.S.C. § 120l(a)(2), that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully seize, confine, kidnap, abduct,
and carry away Faron Lynn Kalama and held her
for a benefit;
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
On November 18, 2013, the Court held an arraignment hearing
on the Third Superseding Indictment and set a briefing schedule
for any motions against the Third Superseding Indictment.
On December 5, 2013, before the deadline for any motions
against the Third Superseding Indictment had passed, Smith pled
guilty to the third count of Murder in the First Degree.
On April 16, 2014, the Court held a sentencing hearing,
granted the government’s Motion to Dismiss Counts One and Two of
the Third Superseding Indictment as to Smith, and sentenced Smith
5

- OPINION AND ORDER

App. C-6
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 6 of 59

to a term of life imprisonment.
On April 17, 2014, the Court entered a Judgment.
On May 1, 2014, Smith filed a Notice of Appeal to the Ninth
Circuit.
On January 14, 2016, the Ninth Circuit issued a Mandate
affirming Smith’s sentence and conviction.
On April 7, 2016, Smith filed a Petition for Writ of
Certiorari to the United States Supreme Court.
On May 23, 2016, the Supreme Court denied Smith’s Petition
for Writ of Certiorari.
On May 1, 2017, Smith filed a Motion (#248) Under 28 U.S.C.
§ 2255 to Vacate, Set Aside, or Correct Sentence on the ground of
ineffective assistance of counsel.
On January 11, 2018, Smith filed a First Amended Motion
(#248) Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence on the ground of ineffective assistance of counsel.
Court took this matter under advisement on June 24, 2019.

STANDARDS
28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the right
to be released upon the ground that the sentence
was imposed in violation of the Constitution or
laws of the United States, or that the court was
without jurisdiction to impose such sentence, or
that the sentence was in excess of the maximum
authorized by law, or is otherwise subject to
6

- OPINION AND ORDER

The

App. C-7
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 7 of 59

collateral attack, may move the court which
imposed the sentence to vacate, set aside or
correct the sentence.
* * *
If the court finds that the judgment was rendered
without jurisdiction, or that the sentence imposed
was not authorized by law or otherwise open to
collateral attack, or that there has been such a
denial or infringement of the constitutional
rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall
vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant
a new trial or correct the sentence as may appear
appropriate.
Although "the remedy [under § 2255] is . . . comprehensive,
it does not encompass all claimed errors in conviction and
sentencing. . . .

Unless the claim alleges a lack of

jurisdiction or constitutional error, the scope of collateral
attack [under § 2255] has remained far more limited."

United

States v. Addonizio, 442 U.S. 178, 185 (1979).

DISCUSSION
Smith moves to vacate her conviction and sentence on the
ground that she received ineffective assistance of counsel and
asserts eighteen bases for her claim.

Specifically, Smith

alleges counsel provided ineffective assistance when they
1.

failed to file a motion to dismiss the Third
Superseding Indictment in order to assert that all
counts of the Third Superseding Indictment failed to

7

- OPINION AND ORDER

App. C-8
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 8 of 59

allege an offense;
2.

recommended “Smith plead guilty to Count Three under
the terms outlined in her plea agreement . . . because
Count Three, as alleged in the Third Superseding
Indictment, failed to allege an offense”;

3.

“failed to move for an arrest of judgment under Federal
Rules of Criminal Procedure . . . 34, after the change
of plea, asserting that the case should be dismissed
because Count Three failed to state an offense”;

4.

advised Smith “to plead guilty pursuant to a plea
agreement in which the government could ask for no more
than 35 years of imprisonment without adequately
understanding or advising defendant Smith of the risk
that the court would impose a sentence of life
imprisonment”;

5.

failed to negotiate a plea agreement in which Smith
would not have to waive her right to an appeal in the
event the Court imposed a sentence of life
imprisonment;

6.

“failed to negotiate a plea agreement under Federal
Rules of Criminal Procedure, Rule 11(c)(1)(C), that
would have bound . . . Smith’s guilty plea to an
agreement by the Court to impose a sentence within a
term of years, as opposed to life imprisonment”;

8

- OPINION AND ORDER

App. C-9
Case 3:12-cr-00538-BR

7.

Document 332

Filed 08/13/19

Page 9 of 59

“failed to object to the government’s breach of the
plea agreement at sentencing when it compared . . .
Smith’s case unfavorably with other cases in the
District of Oregon, described . . . Smith’s conduct as
worse than that of other defendants in the district,
and made other statements that contradicted its promise
and obligation to sincerely argue for imposition of no
more than 35 years’ imprisonment”;

8.

failed to consider the possibility that the Court would
impose a sentence above the maximum term recommended by
the government;

9.

“failed to object to the government presenting partial
sentencing information about other cases in the
District of Oregon, failed to request more information
about those cases, failed to request more time to
address those cases, and failed to adequately address
those cases at sentencing”;

10.

“failed to object to the Court’s separate request for
sentencing materials from other cases in the District
of Oregon”;

11.

“failed to object to the Court’s reliance on its own
memory and recollection of the details from other
murder cases in the District of Oregon as a basis for
its conclusion that [Smith’s] case was not sufficiently

9

- OPINION AND ORDER

App. C-10
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 10 of 59

similar to those other cases to justify a sentence of
less than life imprisonment”;
12.

“failed to obtain and present to the Court . . .
sentencing data that would have provided the Court with
a meaningful basis of comparison when the Court was
determining what sentence to impose”;

13.

“[w]hen, at sentencing, the Court’s statements made it
plain that the Court considered defendants’ conduct
worse than that of others convicted of First Degree
Murder in the District of Oregon, defense counsel
failed to move for a continuance on the basis that the
defense had not had a fair or meaningful opportunity to
understand, evaluate, and present information about
those cases”;

14.

“failed to advise the Court that because attorney
Winemiller had represented one of the defendants the
Court was comparing to . . . Smith, ethical
restrictions precluded the defense from engaging in a
full and fair comparison of the two defendants, putting
defendant Smith in a constitutionally untenable
disadvantage”;

15.

“invited a comparison to Oregon law in defendant
Smith’s sentencing submission and then pursued that
comparison at sentencing”;

10 - OPINION AND ORDER

App. C-11
Case 3:12-cr-00538-BR

16.

Document 332

Filed 08/13/19

Page 11 of 59

failed to argue on appeal that “the government’s breach
of a plea agreement warranted remand for re-sentencing
before a different judge”;

17.

failed to argue on appeal that “the ‘harmless error’
rule did not apply to the law of contractual plea
agreements and by failing to petition the appellate
court for reconsideration or en banc review after it
affirmed the sentence”; and

18.

“[t]o the extent that this Court were to conclude that
the constitutional deprivations viewed individually
were harmless, not prejudicial, or otherwise not
warranting relief, it must conclude that the cumulative
effect of the multiplicity of errors (in any
combination) does.”

The government asserts the Court should deny Smith’s Motion
in its entirety.
I.

Standards
The Supreme Court has established a two-part test to

determine whether a defendant has received constitutionally
deficient assistance of counsel.
739 (2011).

Premo v. Moore, 131 S. Ct. 733,

See also Strickland v. Washington, 466 U.S. 668,

678, 687 (1984).

Under this test a defendant must not only prove

counsel's assistance was deficient, but also that the deficient
performance prejudiced the defense.

11 - OPINION AND ORDER

Premo, 131 S. Ct. at 739.

App. C-12
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 12 of 59

See also Sexton v. Cozner, 679 F.3d 1150, 1159 (9th Cir. 2012);
Ben–Sholom v. Ayers, 674 F.3d 1095, 1100 (9th Cir. 2012).
“To prove deficiency of performance, the defendant must show
counsel made errors so serious that performance fell below an
objective standard of reasonableness under prevailing
professional norms.”

Mak v. Blodgett, 970 F.2d 614, 618 (9th

Cir. 1992)(citing Strickland, 466 U.S. at 687-88)).

See also

Sexton, 679 F.3d at 1159 (citing Premo, 131 S. Ct. at 739).

The

court must inquire “whether counsel's assistance was reasonable
considering all the circumstances” at the time of the assistance.
Strickland, 466 U.S. at 688.
958, 973 (9th Cir. 2012).

See also Detrich v. Ryan, 677 F.3d

There is a strong presumption that

counsel's assistance was adequate.

Strickland, 466 U.S. at 689.

See also Sexton, 679 F.3d at 1159.
To prove prejudice “[t]he defendant must show that there is
a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694.
60.

See also Sexton, 679 F.3d at 1159-

“A reasonable probability is a probability sufficient to

undermine confidence in the outcome.”
695.

Strickland, 466 U.S. at

See also Sexton, 679 F.3d at 1160.
The court “need not determine whether counsel's performance

was deficient before examining the prejudice suffered by the
defendant.”

Strickland, 466 U.S. at 697.

12 - OPINION AND ORDER

See also Heishman v.

App. C-13
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Ayers, 621 F.3d 1030, 1036 (9th Cir. 2010).

Page 13 of 59

“If it is easier to

dispose of an ineffectiveness claim on the ground of lack of
sufficient prejudice, . . . that course should be followed.”
Strickland, 466 U.S. at 697.

See also Heishman, 621 F.3d at

1036.

DISCUSSION
As noted, Smith alleges 18 bases for her claim of
ineffective assistance of counsel.
I.

Ineffective Assistance Claims Based on the Indictments
As noted, Smith alleges trial counsel1 provided ineffective

assistance when they failed to file a motion to dismiss the Third
Superseding Indictment on the ground that none of the counts
alleged an offense.

Specifically, Smith asserts defense counsel

“should have argued that neither Oregon’s burglary statute,
ORS 164.225, nor the federal kidnapping statute at 18 U.S.C.
§ 1201(a)(2), may be a predicate felony to support a conviction
for Felony Murder under 18 U.S.C. § 1111(a).”
A.

Oregon Revised Statutes § 164.225 as a Predicate to
Felony Murder
In Counts One and Two of the Third Superseding

Indictment the government alleged Smith and Lawrence “with malice

1

Smith was represented by Kristen Winemiller and Lisa
Maxfield at all times before her appeal.
13 - OPINION AND ORDER

App. C-14
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 14 of 59

aforethought, did unlawfully kill Faron Lynn Kalama, in the
perpetration of, or in the attempt to perpetrate, Burglary in the
First Degree, in violation of Oregon Revised Statute 164.225.”
Smith asserts counsel provided ineffective assistance when they
failed to assert Oregon’s burglary statute is not a predicate
felony that can support a conviction for felony murder under
§ 1111(a).
The government asserts defense counsel was not
ineffective for failing to assert Oregon’s burglary statute was
not a predicate felony that could support a conviction for felony
murder because it was not until nearly three years after the
government filed the Third Superseding Indictment that the Ninth
Circuit held state burglary statutes could be too broad to
support burglary as a predicate to federal felony murder.

See

United States v. Reza-Ramos, 816 F.3d 1110 (9th Cir. 2016).
The Ninth Circuit has made clear that counsel are not
ineffective for failing to anticipate a decision in a later case.
See, e.g., Styers v. Schriro, 547 F.3d 1026, 1032 (9th Cir. 2008)
(“Styers relies almost exclusively on our decision in Daniels v.
Woodford, 428 F.3d 1181 (9th Cir. 2005). . . .

However, Daniels

was issued almost fifteen years after Styers' voir dire
proceedings. . . .

As such, Styers cannot rest his ineffective

assistance of counsel claim on Daniels.”); Lowry v. Lewis, 21
F.3d 344, 346 (9th Cir. 1994)(holding an attorney is not

14 - OPINION AND ORDER

App. C-15
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 15 of 59

ineffective for failing to anticipate a decision in a later
case).
Because the Ninth Circuit did not hold until three
years after the government filed the Third Superseding Indictment
that state burglary statutes could be too broad to support
burglary as a predicate to federal felony murder, the Court
concludes defense counsel’s performance did not fall below an
objective standard of reasonableness under the then-existing
prevailing professional norms when they failed to challenge the
Third Superseding Indictment on the ground that Oregon’s burglary
statute is too broad to be a predicate felony that can support a
conviction for felony murder under § 1111(a).

Accordingly, the

Court concludes defense counsel was not ineffective when they
failed to challenge the Third Superseding Indictment on that
ground.
B.

Kidnapping under 18 U.S.C. § 1201 as a Predicate to
Felony Murder
Smith also asserts her counsel was ineffective when

they failed to file a motion to dismiss Count Three of the Third
Superseding Indictment on the ground that the federal kidnapping
statute, 18 U.S.C. § 1201(a)(2), is not a predicate felony that
can support a conviction for Felony Murder under 18 U.S.C.
§ 1111(a).

Specifically, Smith contends although Congress added

kidnapping to the list of predicate crimes in the Felony Murder
statute, 18 U.S.C. § 1111(a), that list does not reference 18
15 - OPINION AND ORDER

App. C-16
Case 3:12-cr-00538-BR

U.S.C. § 1201.

Document 332

Filed 08/13/19

Page 16 of 59

According to Smith, therefore, Congress intended

only generic kidnapping to qualify as a predicate felony to
support a charge of felony murder.

Smith notes the Ninth Circuit

has concluded “the generic definition of kidnapping encompasses,
at a minimum, the concept of a ‘nefarious purpose[]’ motivating
restriction of the victim’s liberty.”

United States v. Gonzalez-

Perez, 472 F.3d 1158, 1161 (9th Cir. 2007).

Federal kidnapping

under § 1201, however, only requires the kidnapping to be “for a
benefit.”

Smith asserts because the Third Superseding Indictment

alleged only § 1201 as the predicate offense for the charge of
felony murder and, and, therefore, it alleged only that Lawrence
and Smith kidnapped Kalama “for a benefit,” the Third Superseding
Indictment failed to allege an offense.

According to Smith,

therefore, defense counsel was ineffective when they failed to
move to dismiss the Third Count on this basis.
The government, however, asserts there was not any
authority that indicated kidnapping under § 1201 could not serve
as a predicate offense to felony murder at the time of the Third
Superseding Indictment.

Moreover, the government asserts Smith

could not have established prejudice in any event because if
defense counsel had moved to dismiss the Third Count on that
basis, the government would have amended the Third Superseding
Indictment to allege nefarious purpose, which is supported by the
evidence.

16 - OPINION AND ORDER

App. C-17
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 17 of 59

The Court concludes it was not entirely clear in 2013
whether kidnapping under § 1201 could serve as a predicate
offense to felony murder.

The Court, however, concludes Smith

has not established “there is a reasonable probability that, but
for counsel's [alleged] error[], the result of the proceeding
would have been different.”

As noted, the government has made

clear that if defense counsel had moved to dismiss the Third
Court on the ground that § 1201 could not serve as a predicate
offense to felony murder, the government would have amended the
Third Superseding Indictment to allege generic kidnapping as the
predicate offense and to allege a “nefarious purpose” for the
kidnapping.

In addition, based on the record before the Court at

the time of the Third Superseding Indictment, the Court would
have concluded the facts supported an allegation of nefarious
purpose.
Accordingly, the Court concludes defense counsel was
not ineffective when they failed to challenge the Third
Superseding Indictment on the ground that § 1201 could not serve
as a predicate offense to felony murder.
II.

Ineffective Assistance Claims Based on the Plea Agreement
Smith alleges a number of ineffective-assistance claims

based on defense counsel’s performance during the plea-agreement
process.

Specifically, Smith alleges defense counsel were

ineffective when they:

17 - OPINION AND ORDER

App. C-18
Case 3:12-cr-00538-BR

1.

Document 332

Filed 08/13/19

Page 18 of 59

recommended “Smith plead guilty to Count Three under
the terms outlined in her plea agreement . . . because
Count Three, as alleged in the Third Superseding
Indictment, failed to allege an offense”;

2.

“failed to move for an arrest of judgment under Federal
Rules of Criminal Procedure . . . 34, after the change
of plea, asserting that the case should be dismissed
because Count Three failed to state an offense”;

3.

advised Smith “to plead guilty pursuant to a plea
agreement in which the government could ask for no more
than 35 years of imprisonment without adequately
understanding or advising defendant Smith of the risk
that the court would impose a sentence of life
imprisonment”;

4.

failed to negotiate a plea agreement in which Smith
would not have to waive her right to an appeal in the
event the Court imposed a sentence of life
imprisonment; and

5.

“failed to negotiate a plea agreement under Federal
Rules of Criminal Procedure, Rule 11(c)(1)(C), that
would have bound . . . Smith’s guilty plea to an
agreement by the Court to impose a sentence within a
term of years, as opposed to life imprisonment.”

18 - OPINION AND ORDER

App. C-19
Case 3:12-cr-00538-BR

A.

Document 332

Filed 08/13/19

Page 19 of 59

Background
On December 5, 2013, Smith pled guilty to Count Three

of the Third Superseding Indictment.

Under the Plea Agreement

the government agreed to dismiss Counts One and Two of the Third
Superseding Indictment against Smith; to recommend a three-level
downward adjustment for acceptance of responsibility under United
States Sentencing Guideline (U.S.S.G.) § 3E1.1; to file a motion
for a U.S.S.G. § 5K1.12 downward departure based on Smith’s
cooperation; and to recommend “a sentence of no longer than 35
years (420 months) in prison.”

Smith agreed not to ask the Court

to impose a sentence of less than 25 years, waived her right to
appeal her conviction and sentence on any grounds “except for a
claim that the sentence imposed exceed[ed] the statutory
maximum,” and waived her right to file a collateral attack on her
sentence on any ground other than ineffective assistance of
counsel.

Both parties agreed the Plea Agreement was made

pursuant to Federal Rule of Criminal Procedure 11(c)(1)(B), and,
therefore, the sentencing “recommendation[s] or request[s] [did]
not bind the court.”
The Plea Petition signed by Smith noted the “Court is
not bound to follow an agreement the parties have reached.

2

I am

U.S.S.G. § 5K1.1 provides: “Upon motion of the government
stating that the defendant has provided substantial assistance in
the investigation or prosecution of another person who has
committed an offense, the court may depart from the guidelines.”
19 - OPINION AND ORDER

App. C-20
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 20 of 59

not entitled to withdraw my guilty pleas if the Court does not
follow our plea agreement.”

The Plea Petition also noted the

maximum sentence
that can be imposed for the crime to which I am
pleading guilty is life imprisonment.
* * *
My attorney has discussed with me the Federal
Sentencing Guidelines, which are advisory and not
mandatory. As I understand it, the Court will
consider the factors listed in 18 U.S.C. §3553(a),
along with the advisory guideline range
established by the United States Sentencing
Guidelines (USSG), to determine a reasonable
sentence that does not exceed the statutory
maximum. If my attorney or any other person has
calculated an advisory guideline range for me, I
know that this is only a prediction and that it is
the judge who makes the final decision as to the
guideline range, the degree to which other factors
weigh upon her decision and the sentence to be
imposed. I understand that the factors the Court
will consider, under 18 U.S.C. §3553(a), include
the nature and circumstances of the offense, my
personal history and characteristics, the goals of
punishment, deterrence, protection and
rehabilitation that sentencing is meant to
achieve, and what sentence is reasonable under the
totality of the circumstances.
Plea Pet. (Docket #134) at ¶¶ 10, 13.
At the December 5, 2013, change-of-plea hearing Smith
advised the Court that she had spent enough time with her
attorney to understand the nature and seriousness of the charge
against her, to understand the evidence the government had to
support the charges, and to discuss her options including her
right to go to trial.

20 - OPINION AND ORDER

The Court also engaged in the following

App. C-21
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 21 of 59

discussion with Smith:
THE COURT:

As counsel noted, Murder in the First
Degree carries a mandatory sentence of
life in prison unless the Government
makes a motion for a sentence less than
life. If the Government makes such a
motion, then I have the authority to
impose a sentence less than life. Do
you understand?

THE DEFENDANT: Yes, your Honor.

THE COURT:

So one thing you've bargained for here
is that the Government's agreed to make
that motion to open the door so that I
. . . have the authority to consider
whether a sentence other than life
should be imposed. Do you understand?

THE DEFENDANT: Yes, your Honor.
THE COURT:

But the agreement in no way guarantees
to you a sentence of any kind. Do you
understand that?

THE DEFENDANT: Yes, I do, your Honor.
THE COURT:

So the agreement is actually between you
and the prosecutor's office, but not the
Court. I'm not allowed to negotiate
with you or to bargain with you or to
make you any promises or assurances,
except to tell you that I will do my
best to fulfill my oath to impose what
is required by law, which is a
reasonable sentence. . . . Do you
understand?

THE DEFENDANT: Yes, I do, your Honor.

* * *
THE COURT:

21 - OPINION AND ORDER

So under this agreement, the
Government's promising to dispose of all
of the other charges in exchange for
your guilty plea, to recommend a
sentence no higher than 35 years, and in

App. C-22
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 22 of 59

return, among other things, you're
agreeing to ask for a sentence no lower
than 25 years. . . . Do you understand?
THE DEFENDANT: Yes, I do, your Honor.
* * *
THE COURT:

So . . . you don't have any right to
appeal. There's no condition under
which you'll be able to challenge this
in a higher court. Do you understand?

THE DEFENDANT: Yes, I do, your Honor.
THE COURT:

You're also giving up the right to bring
what's called a collateral attack,
post-conviction relief. Our
Constitution recognizes that people who
are sitting in custody in a federal
prison have the right to complain if
they can make the case that there was
somehow a violation of their
constitutional rights that led to the
confinement. You're giving up the right
to make that kind of challenge, too,
except on grounds you're not permitted
to give up. The most often-cited ground
for post-conviction relief is so-called
ineffective assistance of counsel.
Blaming the lawyers for the process that
resulted in whatever sentence. Do you
understand?

THE DEFENDANT: Yes.
Def.’s First Am. Mot. to Vacate, Ex. 105 at 14-19.

The Court

found Smith was fully competent; was making a “a knowing,
intelligent, and voluntary waiver of [her] rights”; and her
guilty plea was “knowing, intelligent, and voluntary.”
34.

Id. at

The Court also found there was a sufficient “factual basis

to find [Smith] guilty of Murder in the First Degree as alleged

22 - OPINION AND ORDER

App. C-23
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 23 of 59

in Count 3 on the felony murder charge that the Government has
expressed.”
B.

Id.

Standards
"Defendants’ . . . Sixth Amendment right to counsel

. . . extends to the plea-bargaining process."
566 U.S. 156, 162 (2012)(citation omitted).
Ky., 559 U.S. 356, 364 (2010)(same).

Lafler v. Cooper,

See also Padilla v.

Accordingly, “[d]uring plea

negotiations defendants are 'entitled to the effective assistance
of competent counsel.'"

Lafler, 566 U.S. at 162 (quoting McMann

v. Richardson, 397 U.S. 759, 771 (1970)).
"In Hill, the Court held 'the two-part Strickland v.
Washington test applies to challenges to guilty pleas based on
ineffective assistance of counsel.’”

Lafler, 566 U.S. at 162

(quoting Hill v. Lockhart, 474 U.S. 52, 58 (1985)).

In Missouri

v. Frye the Supreme Court made clear that “the standard laid out
in Hill” continues to apply when a defendant asserts ineffective
assistance of counsel at the plea stage “led him to accept a plea
offer as opposed to proceeding to trial.” 566 U.S. 134, 147
(2012).

See also Lafler, 566 U.S. at 162-63 (contrasts facts in

Lafler to circumstances in Hill in which ineffective assistance
of counsel led the defendant to plead guilty rather than to
proceed to trial).

Thus, when evaluating a claim of ineffective

assistance of counsel based on an allegation that counsel's
ineffective performance led the defendant to plead guilty rather
23 - OPINION AND ORDER

App. C-24
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 24 of 59

than to proceed to trial, the Court must determine whether the
defendant has shown “‘there is a reasonable probability that, but
for counsel's errors, [the defendant] would not have pleaded
guilty and would have insisted on going to trial.’”

Lafler, 566

U.S. at 162 (quoting Hill, 474 U.S. at 59).
"A reasonable probability is a probability sufficient
to undermine confidence in the outcome."

Strickland, 466 U.S. at

See also Smith v. Almada, 640 F.3d 931, 940 (9th Cir.

695.
2011).

In addition, the test to determine the validity of a

guilty plea remains “whether the plea represents a voluntary and
intelligent choice among the alternative courses of action open
to the defendant.”

Hill, 474 U.S. at 56.

See also Mahoney, 611

F.3d at 988.
C.

Failures Related to Sufficiency of the Indictment
As noted, Smith asserts defense counsel was ineffective

when they “failed to move for an arrest of judgment under Federal
Rules of Criminal Procedure . . . 34, after the change of plea,
asserting that the case should be dismissed because Count Three
failed to state an offense” and when they recommended Smith plead
guilty to Count Three “because Count Three, as alleged in the
Third Superseding Indictment, failed to allege an offense.”
The Court has already concluded defense counsel was not
ineffective when they failed to move to dismiss the Third
Superseding Indictment on the ground that it failed to allege an
24 - OPINION AND ORDER

App. C-25
Case 3:12-cr-00538-BR

offense.

Document 332

Filed 08/13/19

Page 25 of 59

For the same reasons, the Court concludes defense

counsel was not ineffective when they failed to move for an
arrest of judgment under Rule 34 or when they recommended Smith
plead guilty to Count Three of the Third Superseding Indictment.
D.

Failures of Plea Negotiation
Smith asserts defense counsel made “numerous errors in

negotiating the plea agreement.”

Specifically, Smith asserts

defense counsel provided ineffective assistance of counsel when
they advised Smith “to plead guilty pursuant to a plea agreement
in which the government could ask for no more than 35 years of
imprisonment without adequately understanding or advising
defendant Smith of the risk that the court would impose a
sentence of life imprisonment”; failed to negotiate a plea
agreement in which Smith would not have to waive her right to an
appeal in the event the Court imposed a sentence of life
imprisonment; and/or “failed to negotiate a plea agreement under
Federal Rules of Criminal Procedure, Rule 11(c)(1)(C), that would
have bound . . . Smith’s guilty plea to an agreement by the Court
to impose a sentence within a term of years, as opposed to life
imprisonment.”
1.

Adequate Understanding of Risk of Life
Imprisonment
As noted, Smith asserts defense counsel provided

ineffective assistance of counsel when they advised Smith “to

25 - OPINION AND ORDER

App. C-26
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 26 of 59

plead guilty pursuant to a plea agreement in which the government
could ask for no more than 35 years of imprisonment without
adequately understanding or advising defendant Smith of the risk
that the court would impose a sentence of life imprisonment.”
Even if defense counsel failed to understand or to
advise Smith of the risk that the Court could impose a life
sentence, which is questionable, the record reflects Smith was
adequately advised of this risk both in the language of the Plea
Agreement and by the Court.

As noted, the Plea Agreement

provided the “Court is not bound to follow an agreement the
parties have reached” and that “the maximum sentence that can be
imposed for the crime to which I am pleading guilty is life
imprisonment.”

In addition, the Court was very clear at Smith’s

plea hearing about the fact that the maximum sentence for the
crime to which Smith pled guilty was life imprisonment and that
the Court did not have to follow the Plea Agreement.

As noted,

the Court advised Smith:
Murder in the First Degree carries a mandatory
sentence of life in prison unless the Government
makes a motion for a sentence less than life. If
the Government makes such a motion, then I have
the authority to impose a sentence less than life
. . . . [O]ne thing you've bargained for here is
that the Government's agreed to make that motion
to open the door so that I . . . have the
authority to consider whether a sentence other
than life should be imposed. . . . But the
agreement in no way guarantees to you a sentence
of any kind. . . . [T]he agreement is actually
between you and the prosecutor's office, but not
the Court. I'm not allowed to negotiate with you
26 - OPINION AND ORDER

App. C-27
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 27 of 59

or to bargain with you or to make you any promises
or assurances, except to tell you that I will do
my best to fulfill my oath to impose what is
required by law, which is a reasonable sentence.
Def.’s First Am. Mot. to Vacate, Ex. 105 at 14.

Smith indicated

she understood the crime to which she was pleading guilty had a
maximum sentence of life imprisonment, that the Court did not
have to follow the Plea Agreement, and that she was not
guaranteed a sentence “of any kind.”

Thus, even if defense

counsel did not adequately understand or advise Smith that there
was a risk that the Court could impose a sentence of life
imprisonment, Smith has not established she was prejudiced by
counsel’s failure because Smith was thoroughly advised by the
Court and by the terms of the Plea Agreement that the Court was
not bound by its terms and that the Court could impose a life
sentence.
Accordingly, the Court concludes defense counsel was
not ineffective when they advised Smith to plead guilty even if
they failed to advise “defendant Smith of the risk that the court
would impose a sentence of life imprisonment.”
2.

Plea Negotiations
Smith alleges she received ineffective assistance

of counsel when they failed to negotiate a plea agreement in
which Smith “would not have to waive her right to an appeal in
the event the Court imposed a sentence of life imprisonment”
and/or “failed to negotiate a plea agreement under Federal Rules
27 - OPINION AND ORDER

App. C-28
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 28 of 59

of Criminal Procedure, Rule 11(c)(1)(C), that would have bound
. . . Smith’s guilty plea to an agreement by the Court to impose
a sentence within a term of years, as opposed to life
imprisonment.”
The Supreme Court has made clear that “defendants have
‘no right to be offered a plea . . . nor a federal right that the
judge accept it.’”
U.S. at 148).

Lafler, 566 U.S. at 168 (quoting Frye, 566

Defense counsel, therefore, was not required to

negotiate a plea, to negotiate specific plea terms, or to
negotiate a specific kind of plea.

In addition, appellate

waivers are regularly included in plea deals and “are supported
by public policy considerations.”

United States v. Lopez

Sanchez, No. 2:14-CR-00245-KJM, 2018 WL 1305730, at *3 (E.D. Cal.
Mar. 13, 2018)(citing United States v. Littlefield, 105 F.3d 527,
530 (9th Cir. 1997)(“We have repeatedly noted that public policy
strongly supports plea agreements that include an appeal
waiver.”)).

In addition, according to the government, the appeal

waiver “formed an integral part of the quid pro quo that provided
Smith [with] substantial benefits”; i.e., the government’s
agreement to move for a sentence less than life imprisonment and
to drop Counts One and Two of the Third Superseding Indictment.
The government notes in its Response to Smith’s Motion that if
defense counsel had “sought an appellate waiver more favorable to
Smith or a plea under Rule 11(c)(1)(C), Smith likely would have

28 - OPINION AND ORDER

App. C-29
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 29 of 59

received a less favorable plea deal.”
On this record the Court finds defense counsel’s
failure to negotiate (1) a plea agreement in which Smith did not
have to waive her right to appeal in the event the Court imposed
a sentence of life imprisonment and/or (2) a plea agreement under
Rule 11(c)(1)(C) did not fall “below an objective standard of
reasonableness.”

Accordingly, the Court concludes defense

counsel was not ineffective when they failed to negotiate such a
plea agreement.
III. Ineffective Assistance Claims Based on Sentencing
Smith asserts defense counsel committed numerous errors at
sentencing.

Specifically, Smith asserts defense counsel erred

when they:
1.

“failed to object to the government’s breach of the
plea agreement at sentencing when it compared . . .
Smith’s case unfavorably with other cases in the
District of Oregon, described . . . Smith’s conduct as
worse than that of other defendants in the district,
and made other statements that contradicted its promise
and obligation to sincerely argue for imposition of no
more than 35 years’ imprisonment”;

2.

failed to consider the possibility that the Court would
impose a sentence above the maximum term recommended by
the government;

29 - OPINION AND ORDER

App. C-30
Case 3:12-cr-00538-BR

3.

Document 332

Filed 08/13/19

Page 30 of 59

“failed to object to the government presenting partial
sentencing information about other cases in the
District of Oregon, failed to request more information
about those cases, failed to request more time to
address those cases, and failed to adequately address
those cases at sentencing”;

4.

“failed to object to the Court’s separate request for
sentencing materials from other cases in the District
of Oregon”;

5.

“failed to object to the Court’s reliance on its own
memory and recollection of the details from other
murder cases in the District of Oregon as a basis for
its conclusion that [Smith’s] case was not sufficiently
similar to those other cases to justify a sentence of
less than life imprisonment”;

6.

“failed to obtain and present to the Court . . .
sentencing data that would have provided the Court with
a meaningful basis of comparison when the Court was
determining what sentence to impose”;

7.

“[w]hen, at sentencing, the Court’s statements made it
plain that the Court considered defendants’ conduct
worse than that of others convicted of First Degree
Murder in the District of Oregon, defense counsel
failed to move for a continuance on the basis that the

30 - OPINION AND ORDER

App. C-31
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 31 of 59

defense had not had a fair or meaningful opportunity to
understand, evaluate, and present information about
those cases”;
8.

“failed to advise the Court that because attorney
Winemiller had represented one of the defendants the
Court was comparing to . . ., ethical restrictions
precluded the defense from engaging in a full and fair
comparison of the two defendants, putting defendant
Smith in a constitutionally untenable disadvantage”;
and

9.

“invited a comparison to Oregon law in defendant
Smith’s sentencing submission and then pursued that
comparison at sentencing.”

A.

Background
On March 13, 2014, the Probation Office prepared a

Presentence Report (PSR) in which it recommended the Court to
impose the maximum sentence the government could seek under the
terms of the Plea Agreement (420 months) and suggested the
“brutal torture” employed in the crime indicated the Court should
not grant a variance.
On April 9, 2014, the government filed a Sentencing
Memorandum in which it identified a number of cases involving
first-degree murder on the Warm Springs Reservation that did not
result in life sentences.

31 - OPINION AND ORDER

App. C-32
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 32 of 59

On April 15, 2014, the Court notified the parties that
it had requested the Probation Officer to prepare a report
listing cases within the District of Oregon in which the court
had imposed life sentences.

On April 15, 2014, the Probation

Office provided to the Court and the parties a memorandum
detailing cases in which the court as a whole had imposed life
sentences and cases in which the court had merely imposed lengthy
sentences.
On April 16, 2014, the Court held a sentencing hearing
for Smith and Lawrence.

Smith, Lawrence, and the government

requested the Court to hear a sentencing presentation on behalf
of Lawrence without the presence of Smith and then a separate
proceeding on behalf of Smith without the presence of Lawrence.
The Court approved the parties’ request.

Accordingly, counsel

for Smith and Lawrence made separate sentencing presentations
with only the pertinent defendant present, and the government
made separate presentations for Smith and Lawrence as well.

At

the conclusion of all of the presentations the Court sentenced
Smith and Lawrence.
During the government’s presentation related to
Lawrence’s sentence AUSA Craig Gabriel advised the Court that the
government was moving for a one-level departure under U.S.S.G.
§ 5K1.1 for Lawrence’s substantial assistance and set out the
factual bases for the government’s recommendation.

32 - OPINION AND ORDER

AUSA Gabriel

App. C-33
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 33 of 59

then reiterated that the government “stand[s] by the plea
agreement” and requested a 32-year sentence for Lawrence.
First Am. Mot. to Vacate, Ex. 106 at 82.

Def.’s

The Court inquired

whether AUSA Gabriel would like to “speak to any comparators
specifically.”

Id.

AUSA Gabriel indicated he wanted to address

comparators, and the Court and AUSA Gabriel then engaged in the
following exchange:
MR. GABRIEL:

Yes, your Honor. I -- first, with
respect to the prior sentences imposed
for Murder in the First Degree, I think
a sentence of 32 years for Ms. Lawrence
falls within the heartland, to use
language we used to use, of those cases.
We've had cases that have resolved for
30 years. Cases that have resolved for
35 years, where there were two deaths.
A case that resolved for 40 years.
But Ms. Lawrence's behavior was -- it
was just more heinous. It was more
horrific.

THE COURT:

None of those cases involved prolonged
torture.

MR. GABRIEL:

Right.

THE COURT:

And what might be called conduct that
would qualify for aggravated murder
analysis under state law. Conduct in
the course of the commission of multiple
felony crimes over many hours and on a
repeated basis. So this case does seem
to stand apart from the others, the
other murder cases.

MR. GABRIEL:

It does. Mr. Williams and I were
speaking this morning. We went to the
Oregon state code. It's not a relevant
factor under 3553(a), but this is

33 - OPINION AND ORDER

App. C-34
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 34 of 59

probably an ag murder case in state
court because there was an intent to
torture and maim the victim here.
THE COURT:

And if it was a state prosecution, the
state of Oregon, if it had jurisdiction,
would have the option to seek the death
penalty for such a case?

MR. GABRIEL:

Correct. If the defendants had been
convicted of aggravated murder, the
state court judge or the jury would have
had three options: Death, life – true
life, without parole, or life with the
possibility of parole after 30 years,
day for day.

THE COURT:

And so my point, with respect to the
reference to the other murder cases
. . . all having sentences that you say
I should match in that range, involve
conduct that was not as egregious, as
brutal, or as prolonged as the defendant
and Ms. Smith engaged in. So I'm
skeptical about the argument that the
sentence you're recommending is
comparable, because I'm concerned . . .
this case really doesn't have a
comparator. And, therefore, the Court's
duty to avoid unwarranted disparity is
an academic one because there really has
not been anything reasonably comparable
that I know of. Am I missing something
there on the facts?

MR. GABRIEL:

I don't believe you're missing anything
on the facts of what happened that day.
This is -- at least in the last 14 years
-- the worst murder that has come . . .
to federal jurisdiction.

THE COURT:

So if it's the worst of the worst, and
appreciating you have a contractual
obligation not to argue for more than 35
years, or 32 years, I'm still
questioning the validity of your
argument that the sentence you're
recommending is appropriate in part

34 - OPINION AND ORDER

App. C-35
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 35 of 59

because it is comparable to the other
sentences, because I don't think it is.
* * *
So do you want to comment on the other
cases that the Probation Office brought
to my attention, where life sentences
were imposed and nobody died? Life
sentences were imposed in cases of
aggravated child pornography, in cases
of violent bank robbery, nobody died,
and yet life sentences were imposed?
MR. GABRIEL:

Your Honor, I will comment on those
briefly. The facts in those cases speak
for themselves. Nobody died.
The criminal history of some of these
defendants[, however,] was much worse
than the criminal history of these
defendants.
* * *
And then with respect to the child
exploitation cases, in those cases, even
though somebody may not have died, those
cases addressed prolific child
pornography producers, who were habitual
offenders. And the social science does
say that the recidivism rate for sex
offenders such as that is so incredibly
high, that they present a dangerousness
for the rest of –

THE COURT:

So you mentioned Congressional intent.
And certainly Congress has spoken with
respect to the risk to the community in
those kinds of violations. But Congress
also spoke in Murder in the First
Degree, to say that it should be
mandatory life.

MR. GABRIEL:

Well, the statute does require life.
But the defendants -- both defendants
did provide substantial assistance,
which relieves the Court from the
obligation to impose life. But,

35 - OPINION AND ORDER

App. C-36
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 36 of 59

obviously, it's the most -- or among the
most serious crimes in the entire code.
We don't dispute that.
THE COURT:

Why is the sentence you're seeking
sufficient, given the seriousness of the
criminal behavior at issue here?

MR. GABRIEL:

We believe it's sufficient with respect
to Ms. Lawrence specifically because she
was 20 years old at the time. And she
had the childhood that . . . led her to
a place where she was easily involved in
a situation; that she's taken
responsibility for. She acted
voluntarily, knowingly, with malice
aforethought. But she was put in a
situation where all of the violence that
had been done to her, she in turn
absolutely projected and attacked on
somebody else. But we do believe that
her mental illness, her traumatic
childhood, including the neglect, the
sexual abuse, and her low IQ are
mitigating factors that may not have
been present in the other cases that
were presented to the Court for
comparison.

THE COURT:

And her voluntary intoxication, which no
doubt played a part in the decision
making that day?

MR. GABRIEL:

Not a defense and not mitigation.

Def.’s First Am. Mot. to Vacate, Ex. 106 at 82-87.
During the government’s sentencing presentation related
to Smith, AUSA Gabriel again moved for a one-level downward
departure under U.S.S.G. § 5K1.1 based on Smith’s substantial
assistance and provided the Court with the bases for the
government’s recommendation:
During the lunch break, your Honor, I spoke with
36 - OPINION AND ORDER

App. C-37
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 37 of 59

Mr. Williams. Mr. Williams litigated the case of
United States v. Ronald McKinley, Angelo Fuentes,
and Tony Gilbert. And Ms. Winemiller represented
Ronald McKinley, who received a 480-month prison
sentence, and I don't think it would be helpful -at least at this point -- to compare the brutality
of one case to the other. But that murder, in
which Mr. McKinley received 40 years, Mr. Fuentes
30, and Mr. Gilbert approximately 20, was a tragic
horrible murder as well. And so we stand by the
statement that the murder here of Faron Kalama was
the worst, but it could be conditioned with was
arguably the worst or among the worst because of
that McKinley murder, 13, 14 years ago.
Def.’s First Am. Mot. to Vacate, Ex. 106 at 113-14.
After the parties’ presentations the Court evaluated
the facts of the crime as well as the government’s recommended
sentence and stated:
The Court's duty today is to impose a sentence on
each of these two young women, Ms. Smith and
Ms. Lawrence, who each have their own tragic
stories. The requirement, as I noted earlier, is
to impose a sentence that is reasonable in law,
that's defined as what would be sufficient but not
greater than necessary to accomplish a number of
purposes set out by statute.
* * *
[T]he legally correct starting point for guideline
analysis for each of the defendants is a life
sentence because that is the sentence mandated by
law for Murder in the First Degree. . . . [T]he
guideline is considered to be a life sentence.
That's where this analysis would end but for the
fact that the Government has made a motion under
the Guideline 5K1.1 for a one-level departure,
meaning a reduction from the guideline range of
life. The motion is based on the cooperation of
each of the defendants to varying degrees.
* * *

37 - OPINION AND ORDER

App. C-38
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 38 of 59

It is always up to the Government to determine
whether such a motion should be made. And so I
emphasize, again, that had the Government not made
the motion, the Court's sentencing analysis would
end with the guideline of life imprisonment. The
Government having made the motion, the Court is
required to consider it.
* * *
But it does not, by any means, relieve the Court
of the responsibility of considering any sentence
up to and including life. The parties bring to
the Court a plea agreement, in each case, which
authorized the advocacy that each of the parties
made. And so with that advocacy and with a
starting point of the guideline range, I'm
required to consider a number of factors. The
first is the nature and the circumstances of the
offense.
* * *
[I]t is sufficient to say that the murder of Faron
Kalama was the end result of many hours of
extraordinary brutality each of the defendants
extended to her that, in my judgment, amounts to
torture. This wasn't an incidental fight in the
heat of the motion. It was prolonged. It was
repetitive. Defendants would leave only to return
again with one or the other taking the lead in
extraordinary violence.
* * *
The nature and the circumstances of the offense
could not be more serious. And so that is a
factor that weighs significantly in favor of a
lengthy prison term.
The Court is to consider a sentence that would
reflect the seriousness of the offense, to promote
respect for the law, and to provide for just
punishment. . . . An offense of this egregious
nature warrants very serious punishment because
without serious punishment for this kind of
depraved behavior, there isn't any reason to
respect the law. If we are not prepared to
38 - OPINION AND ORDER

App. C-39
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 39 of 59

acknowledge this conduct as among the most serious
of criminal behavior, then our laws do not deserve
respect.
* * *
Now, Ms. Winemiller made the point every way she
could that the defendants did not start out
intending to murder Ms. Kalama. They intended to
beat her dirty, are the quotes. But whatever that
means, it certainly does not imply anything other
than brutality. They intended to beat her, and
beat her they did, repeatedly. One wonders how
she managed to survive as long as she did.
Somewhere along the way, when there were
opportunities for one or the other or both to
retreat, neither did. More alcohol, more
encouraging one to the other, I think, is fair to
infer. And we end up with the two of these
defendants and the juvenile offender and
Ms. Kalama taking her last breaths in the back of
a van, and then being dumped.
* * *
I'm required to consider, also, what sentences
have been imposed in cases that are similar, and
to avoid unwarranted disparity. Meaning, if a
sentence is imposed here that is different than a
sentence imposed in other cases of Murder in the
First Degree, the difference has to be justified.
So we start from first trying to analyze whether
the other cases of Murder in the First Degree that
have been brought to my attention, all of which
arose on the Warm Springs reservation, whether
they are similar to these facts; and, if so, the
sentences imposed in those cases should affect the
decision I make today. Unfortunately, I know a
lot about several of those cases because I had the
responsibility of imposing those sentences. And I
do not see much similarity, other than the name of
the charge. I don't see anything similar about
the circumstances of this case and other Murder I
sentences imposed by this Court or other judges in
this district. There really isn't anything
similar.

39 - OPINION AND ORDER

App. C-40
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 40 of 59

I asked for guidance from the Probation Office to
determine whether there were life sentences
imposed in other cases or lengthy prison
sentences; again, to try to evaluate what length
of a prison term would be sufficient in these
circumstances. And, as has been shared with the
parties, there were a number of cases identified,
not one of which resulted in death but involved
other kinds of circumstances. An armed career
offender, so someone with a lifelong pattern of
using firearms and violence. Bank robberies that
involved firearms and carjackings. Pornography
cases with extreme facts. So I -- I agree with
Mr. Gabriel that none of those cases are
particularly comparative to these circumstances.
* * *
Congress imposed a mandatory life sentence for
Murder in the First Degree for a reason. That
reflected the official perspective of our
lawmakers that when Murder in the First Degree is
committed, life ought to be the sentence. The
Government permitted, through its motion, for a
downward departure, the Court to consider lesser
sentences. And, believe me, I have. But in good
conscience, I do not agree that even the sentence
recommended by the Government is sufficient here,
in light of the seriousness of the conduct at
issue.
* * *
And I believe it is my duty, today, to impose a
life sentence for each of the two defendants. So
that will be the judgment of the Court.
First Am. Mot. to Vacate, Ex. 106 at 135-146.
B.

Smith’s Claim Based on the Government’s Alleged Breach
of the Plea Agreement at Sentencing
As noted, Smith asserts defense counsel erred when they

failed to object to the government’s breach of the Plea Agreement
at sentencing.

40 - OPINION AND ORDER

App. C-41
Case 3:12-cr-00538-BR

1.

Document 332

Filed 08/13/19

Page 41 of 59

The Law
“‘[W]hen a plea rests in any significant degree on

a promise or agreement of the prosecutor, so that it can be said
to be part of the inducement or consideration, such promise must
be fulfilled.’”

United States v. Alcala-Sanchez, 666 F.3d 571,

575 (9th Cir. 2012)(quoting Santobello v. New York, 404 U.S. 257,
262 (1971)).

“A plea agreement is a contract, and the government

is held to its literal terms.”
(citation omitted).

Alcala-Sanchez, 666 F.3d at 575

“Requiring the government to strictly comply

with the terms of a plea agreement encourages plea bargaining,
‘an essential component of the administration of justice’ because
it ensures that a defendant gets the benefit of his or her
bargain — the presentation of a united front to the court.’”
(quoting Santobello, 404 U.S. at 260).

Id.

“It does not matter that

a breach is inadvertent or “‘that the statements or arguments the
prosecutor makes in breach of the agreement do not influence the
sentencing judge.’”

Id. (quoting Gunn v. Ignacio, 263 F.3d 965,

969–70 (9th Cir. 2001)).
The Ninth Circuit has made clear that the
“government breaches its agreement with the defendant if it
promises to recommend a particular disposition of the case, and
then either fails to recommend that disposition or recommends a
different one.”

United States v. Heredia, 768 F.3d 1220, 1231

(9th Cir. 2014).

“The government's promise to recommend a

41 - OPINION AND ORDER

App. C-42
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 42 of 59

particular disposition can be broken either explicitly or
implicitly.”

Id.

“The government is under no obligation to make

an agreed-upon recommendation ‘enthusiastically.’

However, it

may not superficially abide by its promise to recommend a
particular sentence while also making statements that serve no
practical purpose but to advocate for a harsher one.”
(citations omitted).

Id.

Thus, “the government breaches its bargain

with the defendant if it purports to make the promised
recommendation while ‘winking at the district court’ to impliedly
request a different outcome.”

Id. (quoting United States v. Has

No Horses, 261 F.3d 744, 750 (8th Cir. 2001)).

“An implicit

breach of the plea agreement occurs if, for example, the
government agrees to recommend a sentence at the low end of the
applicable Guidelines range, but then makes inflammatory comments
about the defendant's past offenses that do not provide the
district judge with any new information or correct factual
inaccuracies.”
2.

Heredia, 768 F.3d at 1231 (citations omitted).
Analysis
Smith contends the government breached the

provision of the Plea Agreement in which it recommended a § 5K1.1
downward departure when the government “compared . . . Smith’s
case unfavorably with other cases in the District of Oregon,
described . . . Smith’s conduct as worse than that of other
defendants in the district, and made other statements that
42 - OPINION AND ORDER

App. C-43
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 43 of 59

contradicted its promise and obligation to sincerely argue for
imposition of no more than 35 years’ imprisonment.”
As a preliminary matter the Court notes the
majority of the statements Smith relies on were made by
AUSA Gabriel during his presentation related to Lawrence’s
sentence.

For example, Smith points to Gabriel’s statement:

“But Ms. Lawrence's behavior was -- it was just more heinous.
was more horrific.”

It

Similarly, AUSA Gabriel agreed with the

Court’s statement made during AUSA Gabriel’s discussion of
Lawrence’s sentence that “this case does seem to stand apart from
the others.”

In addition, AUSA Gabriel’s statement that “this is

probably an ag murder case in state court because there was an
intent to torture and maim the victim here” was made during his
presentation related to Lawrence’s sentence.

It is questionable

whether defense counsel who represents a defendant who is not
present may object during the government’s separate sentencing
presentation as to a different defendant who is represented by a
different attorney.

Thus, the failure of Smith’s counsel to

object to AUSA Gabriel’s presentation at Lawrence’s sentencing is
unlikely to support Smith’s claim for ineffective assistance of
counsel.
In any event, Smith also asserts her defense
counsel rendered ineffective assistance when they failed to
object to AUSA Gabriel’s statement during his sentencing

43 - OPINION AND ORDER

App. C-44
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 44 of 59

presentation related to Smith that “the murder here of Faron
Kalama was the worst, but it could be conditioned with [what] was
arguably the worst or among the worst because of that McKinley
murder, 13, 14 years ago” and failed to identify AUSA Gabriel’s
statement as a breach of the Plea Agreement.
Although AUSA Gabriel made various statements
regarding the nature and/or severity of the crime to which Smith
had pled guilty, he also moved for a downward departure pursuant
to the terms of the Plea Agreement.

In addition, AUSA Gabriel

argued in favor of the government’s recommendation when the Court
expressed concern as to whether a downward departure was
warranted.

For example, USA Gabriel conceded the comparator

cases in which individuals had received life imprisonment did not
involve death, but he also pointed out that “[t]he criminal
history of some of these defendants was much worse than the
criminal history of these defendants.”

AUSA Gabriel also noted

“with respect to the child exploitation cases . . . those cases
addressed prolific child pornography producers, who were habitual
offenders.

And the social science does say that the recidivism

rate for sex offenders such as that is so incredibly high, that
they present a dangerousness.”

AUSA Gabriel sought to

distinguish this case from other cases in which defendants had
received life sentences.

AUSA Gabriel also pointed out

repeatedly to the Court that “defendants did provide substantial

44 - OPINION AND ORDER

App. C-45
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 45 of 59

assistance, which relieves the Court from the obligation to
impose life.”

When the Court asked the government to explain

“[w]hy . . . the sentence you're seeking [is] sufficient, given
the seriousness of the criminal behavior at issue here,” AUSA
Gabriel defended the government’s request for a downward
departure based on the age of Smith and Lawrence; their
difficult, traumatic, and violent relationships and childhoods;
and their abuse as factors that “may not have been present in the
other cases that were presented to the Court for comparison.”

In

short, AUSA Gabriel conceded the facts of the crime to which
Smith had pled guilty were quite serious, but he also vigorously
defended the government’s recommendation for a downward departure
consistent with the Plea Agreement.

Thus, AUSA Gabriel’s conduct

is not the kind of conduct that courts have found breached plea
agreements.
In Alcala-Sanchez, for example, the government
“promised to recommend a total offense level of 12 and no more
than a 33–month sentence and instead submitted a sentencing
summary chart recommending a total offense level of 20 and a
78–month sentence.”

666 F.3d at 575-76.

The Ninth Circuit held

the government breached the plea agreement and noted “[i]t does
not matter that the breach was inadvertent, caused by a heavy
workload for government lawyers, or the result of cases getting
handed from person to person at the U.S. Attorney's Office.”

45 - OPINION AND ORDER

Id.

App. C-46
Case 3:12-cr-00538-BR

at 576.

Document 332

Filed 08/13/19

Page 46 of 59

Similarly, in United States v. Luciano the Ninth Circuit

concluded the government breached the plea agreement when
[u]nder the plain language of the plea agreement,
if the government determined that [the defendant]
had provided substantial assistance, it was
obligated to move the court, pursuant to U.S.S.G.
§ 5K1.1, “to impose a sentence below the
otherwise-applicable” Guidelines range of 6-12
months. Although it filed a section 5K1.1 motion
asserting that [the defendant] had provided
substantial assistance, the government recommended
a 6-month sentence that was within, rather than
below, the “otherwise applicable” Guidelines
range.
765 F. App'x 350, 351 (9th Cir. 2019).

In Heredia the Ninth

Circuit concluded the government breached the plea agreement even
though it abided by the letter of the agreement.

The court

explained:
Here, the parties agreed to recommend that Morales
receive a prison term equal to the low end of the
applicable Guidelines range plus a three-year term
of supervised release. The government breached
its agreement, however, through its repeated and
inflammatory references to Morales's criminal
history in its sentencing memorandum. . . .
[G]iven the opportunity to argue for the low-end
sentence it had promised to recommend, the
government offered a series of prejudicial
“statements related to the seriousness of the
defendant's prior record.” Whitney, 673 F.3d at
971. The central theme of the government's
sentencing position was that Morales was a
dangerous recidivist who had spent twenty years
flouting the law and menacing others. Whether
intentional or not, the government breached the
plea agreement by implicitly recommending a higher
sentence than agreed upon.
* * *
Indeed, given the government's promise of
46 - OPINION AND ORDER

App. C-47
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 47 of 59

leniency, it is notable that its sentencing
memorandum contained no mitigating information at
all. Rather, it emphasized that Morales, a
“danger to the community,” needed to be
“deterre[d]” because of his “20–year criminal
history,” his “consistent disregard” for the law,
and his criminal “propensity.” The reader is left
to wonder why the government believed a low-end
Guidelines sentence was appropriate in the first
place. Accordingly, we conclude that, as a whole
and in context, the government's pejorative
comments about Morales's criminal history and
detailed descriptions of his prior offenses served
“no purpose” but to argue for a harsher punishment
than it had agreed to recommend. By implicitly
advocating for a sentence other than the
stipulated one, the government breached the plea
agreement.
768 F.3d at 1232-34 (quotations omitted).
Here, in contrast, AUSA Gabriel’s comments about
the facts of this case and the nature of the charge were made in
the context of addressing the Court’s express concerns that a
sentence less than a life sentence would be insufficient to
achieve the goals of the sentencing guidelines.

AUSA Gabriel,

unlike the prosecutor in Heredia, did not make the promised
recommendation “while winking at the district court’ to impliedly
request a different outcome.”

As noted, AUSA Gabriel

acknowledged the Court’s concerns about a sentence less than life
and argued for a lesser sentence for Smith based on her
cooperation, her history, and her particular situation.

On this

record, therefore, the Court concludes AUSA Gabriel did not
implicitly or explicitly breach the Plea Agreement.
Accordingly, the Court concludes Smith’s counsel
47 - OPINION AND ORDER

App. C-48
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 48 of 59

did not provide ineffective assistance when they failed to object
to the government’s alleged breach of the Plea Agreement.

48 - OPINION AND ORDER

App. C-49
Case 3:12-cr-00538-BR

C.

Document 332

Filed 08/13/19

Page 49 of 59

Smith’s Claim Based on Defense Counsel’s Failure to
Consider the Possibility that the Court Would Impose a
Life Sentence
Smith asserts she received ineffective assistance of

counsel at sentencing when defense counsel failed to consider the
possibility that the Court would impose a life sentence.
In her Supplemental Declaration Kristen Winemiller,
testifies:
As [defense counsel] approached sentencing and
during sentencing, we continued to believe that,
as a practical matter, a life sentence was off the
table. We believed that she would be sentenced
within the negotiated range. As the sentencing
hearing began, I began to wonder whether the Court
was considering a sentence above the negotiated
range but I expected – wrongly – that sentencing
would be continued if such drastic action was
imminent.
Our failure to understand the true stakes at
sentencing was, in part, a result of our undue
reliance on local practice. In an ordinary case
in the district, local practice had been that
. . . the Court would impose a sentence within the
range agreed upon by the parties or provide the
parties with explicit advance notice that the
plea, as negotiated, was not acceptable to the
Court. The Court did provide increasingly
explicit warnings but they came very close in time
to the actual imposition of the sentence and we
did not realize the need to react more quickly and
emphatically. We continued with our sentencing
presentation as if nothing had changed, not as a
matter of strategy but out of a failure to fully
comprehend the gravity of the Court’s warnings.
Suppl. Decl. of Kristen Winemiller at ¶¶ 5-6.
Even if defense counsel’s failure to appreciate
fully that the Court could impose a life sentence despite the

49 - OPINION AND ORDER

App. C-50
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 50 of 59

Plea Agreement fell below an objective standard of
reasonableness, Smith fails to establish prejudice.

Smith does

not identify the way in which counsel’s fuller appreciation of
the risk would have resulted in an alternative strategy at
sentencing and would have created a reasonable probability that
she would have received a lesser sentence.

Winemiller states in

her Supplemental Declaration that if defense counsel had
appreciated a life sentence was truly a possibility, they would
have called more witnesses and presented more evidence specific
to Smith’s difficult background and abuse, they would have
requested a continuance to evaluate the comparator cases, and
they would have objected vigorously to various potential
procedural problems such as AUSA Gabriel’s alleged breach of the
Plea Agreement and the bifurcation of the sentencing hearing.
The Court, however, fully appreciated Smith’s
violent and difficult background and circumstances when it
decided on a life sentence.

The Court also concluded the

comparator cases were unhelpful, and, therefore, the Court did
not consider them.

In addition, the Court has already concluded

AUSA Gabriel did not breach the Plea Agreement.

Finally, even if

the hearing had not been bifurcated, the Court would still have
been deeply troubled by the facts of the crime and reached the
same conclusion that a sentence less than life would not achieve
the goals of the sentencing guidelines.

50 - OPINION AND ORDER

The Court, therefore,

App. C-51
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 51 of 59

concludes Smith has not established the result of the sentencing
proceeding would have been different but for defense counsel’s
failure to consider the possibility that the Court would impose a
life sentence.
Accordingly, the Court concludes Smith’s counsel did
not provide ineffective assistance when they failed to consider
the possibility that the Court would impose a life sentence.
D.

Smith’s Claim Based on Counsel’s Failure to Object to
the Presentation and Use of Comparator Cases
In her Brief in Support of her First Amended Motion to

Vacate Smith alleges she received ineffective assistance of
counsel when counsel failed to “object, on due process grounds,
when the Court considered information beyond that contained in
the record to sentence” Smith.

Specifically, Smith asserts

counsel should have objected to the government’s presentation of
“partial sentencing information about other cases in the District
of Oregon,” objected to the “Court’s separate request for
sentencing materials from other cases in the District of Oregon,”
and objected to “the Court’s reliance on its own memory and
recollection of the details from other murder cases in the
District of Oregon.”

Smith also asserts defense counsel provided

ineffective assistance “[w]hen, at sentencing, the Court’s
statements made it plain that the Court considered defendants’
conduct worse than that of others convicted of First Degree
Murder in the District of Oregon [and] defense counsel failed to
51 - OPINION AND ORDER

App. C-52
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 52 of 59

move for a continuance on the basis that the defense had not had
a fair or meaningful opportunity to understand, evaluate, and
present information about those cases.”

The government asserts

Smith’s claim related to use of the various comparator cases is
barred by the resolution of her direct appeal.
Generally a defendant may not relitigate in a § 2255
proceeding those issues that have been resolved on appeal.

See,

e.g., United States v. Redd, 759 F.2d 699, 701 (9th Cir. 1985)
(The defendant “also claims . . . he was denied effective
assistance of counsel because his attorney failed to raise double
jeopardy, due process, res judicata, and collateral estoppel
challenges during his probation revocation hearing.

Since these

challenges [were raised and decided on appeal, they] would all
have been meritless, [and, therefore, the defendant] cannot claim
that his counsel's failure to raise them constituted ineffective
assistance.”); United States v. Ramirez, 327 F. App’x 751, 752
(9th Cir. 2009)(The defendant “is barred from using a § 2255
motion to relitigate issues decided on direct appeal.”).
On appeal of Smith’s case the Ninth Circuit dismissed
Smith’s claim that her “sentences were improperly influenced by
consideration of other crimes committed in the District of
Oregon” and explained:
The [district] court . . . dismissed the other
crimes that it considered as “not . . . reasonably
comparable” to [Smith’s] crime. It then explained
that the need to impose a comparable sentence in
52 - OPINION AND ORDER

App. C-53
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 53 of 59

this case was an “academic” issue that was “[not]
a factor that really provide[d] any help” in
determining the correct sentence. The
consideration of other crimes thus appears to have
played little if any role in the district court's
sentencing decision.
United States v. Smith, 630 F. App’x 672, 675 (9th Cir. 2015).
Thus, in this case, as in Redd, any challenge by defense counsel
to the Court’s use of comparator cases provided by the Probation
Office, the government, or the Court’s own memory would have been
meritless because Smith’s challenge to the use of comparator
cases was raised and dismissed on appeal.

The Court, therefore,

concludes Smith cannot claim defense counsel's failure to object
to the use of comparator cases constituted ineffective assistance
of counsel.

See Ramirez, 327 F. App’x at 752 (“Therefore, even

assuming the failure of Ramirez's attorney to object to the
admission of this testimony is deficient performance, Ramirez
cannot show prejudice because the testimony was admissible.”)
(citing Strickland, 466 U.S. at 688)).
Accordingly, the Court concludes Smith’s counsel did
not provide ineffective assistance when they failed to object to
the Court’s consideration of information beyond that contained in
the record when sentencing Smith.
E.

Smith’s Claim Based on Counsel’s Failure to Advise the
Court that Winemiller Had Represented a Defendant in
One of the Comparator Cases
Smith asserts she received ineffective assistance of

53 - OPINION AND ORDER

App. C-54
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 54 of 59

counsel when defense counsel “failed to advise the Court that
because attorney Winemiller had represented one of the defendants
the Court was comparing to . . ., ethical restrictions precluded
the defense from engaging in a full and fair comparison of the
two defendants, putting defendant Smith in a constitutionally
untenable disadvantage.”
The record, however, reflects AUSA Gabriel stated in
his presentation that “Ms. Winemiller represented Ronald
McKinley, who received a 480-month prison sentence” in a possible
comparator case.
113.

Def.’s First Am. Mot. to Vacate, Ex. 106 at

Thus, the Court was advised of that fact during the

proceeding.

More importantly, the Court concludes Smith cannot

establish Winemiller’s representation of a defendant in a
possible comparator case was prejudicial because the Court did
not consider the comparator cases in reaching its sentencing
decision.

Smith, therefore, cannot establish “there is a

reasonable probability that, but for counsel’s . . . error[], the
result of the proceeding would have been different” on that
basis.

Strickland, 466 U.S. at 694.
Accordingly, the Court concludes Smith’s counsel did

not provide ineffective assistance when they failed to advise the
Court that Winemiller had represented a defendant in one of the
potential comparator cases in light of the fact that the
government apprised the Court of that fact, and, in any event,

54 - OPINION AND ORDER

App. C-55
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 55 of 59

the Court did not consider any comparator cases.
F.

Smith’s Claim for Defense Counsel’s Comparison of
Smith’s Case to Outcomes under Oregon Law
Smith asserts she received ineffective assistance of

counsel when defense counsel “invited a comparison to [the
outcome under] Oregon law in . . . Smith’s sentencing submission
and then pursued that comparison at sentencing.”

Even if defense

counsel’s comparison to Oregon law fell below an objective
standard of reasonableness under prevailing professional norms,
which is questionable, the Court finds Smith has not established
prejudice.
At sentencing the government expressly argued
comparisons to state law are irrelevant, and the Court agreed.
Specifically, the Court noted:
I don't think there's a lot to argue about in
terms of the comparison between the ways in which
this conduct could have been charged [in state and
federal court]. The fact is [Smith] admitted
responsibility for conduct that is Murder in the
First Degree, and she got the Government to agree
to open the door to the Court exercising
discretion for something other than a mandatory
life sentence. So I don't think this comparison
[to state law] provides any help at all in trying
to analyze, in the end, what is a reasonable
sentence.
Def.’s First Am. Mot. to Vacate, Ex. 105 at 120-21.

Thus, the

Court did not consider defense counsel’s comparison to state law
in sentencing.

The Court, therefore, concludes Smith has not

established “a reasonable probability that, but for counsel's

55 - OPINION AND ORDER

App. C-56
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 56 of 59

unprofessional errors, the result of the proceeding would have
been different.”
Accordingly, the Court concludes Smith’s counsel did
not provide ineffective assistance when they “invited a
comparison to Oregon law in . . . Smith’s sentencing submission
and then pursued that comparison at sentencing” because the Court
did not consider the state-law comparisons.
IV.

Ineffective Assistance Claims Based on Appeal
Smith alleges she received ineffective assistance of counsel

on appeal3 when appellate counsel failed to argue that “the
government’s breach of a plea agreement warranted remand for
re-sentencing before a different judge.”

Smith also asserts

appellate counsel provided ineffective assistance on appeal when
she failed to argue that “the ‘harmless error’ rule did not apply
to the law of contractual plea agreements” and “failed to
petition the appellate court for reconsideration or en banc
review after it” applied the harmless-error rule.
The Court has already concluded the government did not
breach the Plea Agreement.

The Court, therefore, also concludes

Smith did not receive ineffective assistance of counsel on appeal
when appellate counsel failed to argue the government’s breach of
a plea agreement warranted remand for resentencing before a
different judge.
3

Kristen Winemiller represented Smith on appeal.

56 - OPINION AND ORDER

App. C-57
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 57 of 59

As to Smith’s assertion that appellate counsel provided
ineffective assistance on appeal when she failed to argue that
the “harmless-error” rule did not apply to the law of contractual
plea agreements, the Ninth Circuit has made clear that it reviews
the issue for plain error absent an objection to an alleged
breach of the plea agreement at trial.

See, e.g., United States

v. Hernandez-Castro, 814 F.3d 1044, 1045 (9th Cir. 2016)
(reviewing the defendant’s claim that the government breached the
plea agreement for plain error because the defendant “did not
raise this argument at sentencing.”)(citing Puckett v. United
States, 556 U.S. 129, 135 (2009)); United States v. GonzalezAguilar, 718 F.3d 1185, 1187 (9th Cir. 2013)(same).

Smith,

therefore, has failed to establish either that appellate
counsel’s performance fell below an objective standard of
reasonableness under prevailing professional norms or that the
result of the proceeding would have been different “but for”
appellate counsel’s errors.
Accordingly, the Court concludes Smith’s counsel did not
provide ineffective assistance when she failed to argue that “the
government’s breach of a plea agreement warranted remand for
re-sentencing before a different judge,” failed to argue that
“the ‘harmless error’ rule did not apply to the law of
contractual plea agreements,” and/or “failed to petition the
appellate court for reconsideration or en banc review after it”

57 - OPINION AND ORDER

App. C-58
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 58 of 59

applied the harmless error rule.
V.

Smith’s Claim Related to Cumulative Errors
Finally, Smith asserts:

“To the extent that this Court were

to conclude that the constitutional deprivations viewed
individually were harmless, not prejudicial, or otherwise not
warranting relief, it must conclude that the cumulative effect of
the multiplicity of errors (in any combination) does.”
The Ninth Circuit has “‘granted habeas relief under the
cumulative effects doctrine when there is a ‘unique symmetry’ of
otherwise harmless errors, such that they amplify each other in
relation to a key contested issue in the case.’”

Smith v.

Pennywell, 742 F. App'x 230, 232 (9th Cir. 2018)(quoting Ybarra
v. McDaniel, 656 F.3d 984, 1001 (9th Cir. 2011)).

Although Smith

points to a number of alleged potential errors, the Court has
concluded most of the items identified are not error or that
Smith has not established prejudice.

The Court, therefore,

concludes Smith “has failed to establish a ‘unique symmetry’ of
errors that amplify a key contested issue.”

Smith, 742 F. App’x

at 232.
In summary, the Court denies Smith’s First Amended Motion to
Vacate, Set Aside or Correct Sentence.

In addition, the Court

finds Smith has not made a substantial showing that she was
denied a constitutional right, and, therefore, the Court declines
to issue a Certificate of Appealability.
58 - OPINION AND ORDER

App. C-59
Case 3:12-cr-00538-BR

Document 332

Filed 08/13/19

Page 59 of 59

CONCLUSION
For these reasons, the Court DENIES Smith’s First Amended
Motion (#283) Under 28 U.S.C. § 2255 to Vacate, Set Aside or
Correct Sentence by A Person in Federal Custody and DECLINES to
issue a Certificate of Appealability.
IT IS SO ORDERED.
DATED this 13th day of August, 2019.

/s/ Anna J. Brown
ANNA J. BROWN
United States Senior District Judge

59 - OPINION AND ORDER

App. D-1

(1 of 11)

Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-1, Page 1 of 6

FILED

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

NOV 06 2015
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

Nos. 14-30080, 14-30081
D.C. No. 3:12-cr-00538-BR-2

MEMORANDUM*

v.
ANGELEDITH SARAMAYLENE SMITH
and TANA CHRIS LAWRENCE,
Defendants - Appellants.

Appeals from the United States District Court
for the District of Oregon
Anna J. Brown, District Judge, Presiding
Argued and Submitted October 13, 2015
Portland, Oregon
Before: TASHIMA, GILMAN,** and BEA, Circuit Judges.

Angeledith Smith and Tana Lawrence (Defendants) tortured and killed Faron
Kalama on the Warm Springs Indian Reservation in the fall of 2012. They eventually

This disposition is not appropriate for publication and is not precedent except as
provided by 9th Cir. R. 36-3.

*

The Honorable Ronald Lee Gilman, Senior Circuit Judge for the U.S. Court of
Appeals for the Sixth Circuit, sitting by designation.

**

App. D-2
Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-1, Page 2 of 6

pleaded guilty to first-degree murder. As part of the plea agreements, the government
promised to recommend a sentence of no more than 35 years in prison and Defendants
agreed to recommend a sentence of no less than 25 years in prison. Defendants
accepted the plea agreements and waived their right to appeal any aspect of their
sentences despite their acknowledgment that the district court would not be bound by
these recommendations. The district court ended up imposing life sentences on both
Defendants. It explained that Defendants’ conduct was among the worst it had
encountered and that the government’s recommended sentence did not adequately
account for the brutality of their crime.
Both Defendants now appeal. They first contend that their appellate waivers are
unenforceable because the government breached the plea agreements. Next, they raise
several challenges to the substantive and procedural aspects of the district court’s
sentencing decision.
A knowing and voluntary appellate waiver is enforceable except in limited
circumstances, such as when the government breaches the plea agreement that
contains the waiver. United States v. Jeronimo, 398 F.3d 1149, 1153 & n.2 (9th Cir.
2005), overruled on other grounds by United States v. Castillo, 496 F.3d 947, 957 (9th
Cir. 2007) (en banc). A breach can occur when the government pays lip service to its
obligations under a plea agreement but nevertheless persuades a district court to

-2-

App. D-3
Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-1, Page 3 of 6

impose a harsher sentence than the one contemplated by the agreement. United States
v. Whitney, 673 F.3d 965, 972 (9th Cir. 2012).
In the present case, the government agreed to recommend a sentence of no more
than 35 years. At the sentencing hearing, however, the government stated that
Defendants’ crime was worse than other murders that had resulted in 35- or 40-year
sentences. The government also noted that Defendants’ crime could have carried the
death penalty under state law. Finally, the government stated that Defendants’ crime
was one of the worst murders that had occurred in the court’s judicial district in at
least the last 14 years.
The government maintains that these statements were simply intended to rebut
Defendants’ arguments in favor of a 25-year sentence, but the statements could have
easily influenced the district court to impose a harsher sentence than that which the
government had agreed to recommend. Ultimately, however, we need not resolve
whether a breach of the plea agreement occurred because Defendants are not entitled
to relief even if we consider their appeal on the merits. We will therefore assume
without deciding that a breach did occur and that Defendants’ appellate waivers are
therefore unenforceable.
On the merits, Defendants first argue that the government’s alleged breach of
the plea agreements justifies vacature of their sentences. They did not raise this claim

-3-

App. D-4
Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-1, Page 4 of 6

before the district court, however, so the plain-error standard of review applies. See
Whitney, 673 F.3d at 970. Defendants must therefore establish that a “clear or
obvious” error occurred and that the error affected their “substantial rights.” See
Puckett v. United States, 556 U.S. 129, 135 (2009). An error impacts a defendant’s
“substantial rights” only if there is “a reasonable probability” that the error affected
the outcome of the sentencing. United States v. Gonzalez-Aguilar, 718 F.3d 1185,
1189 (9th Cir. 2013).
Defendants cannot satisfy this standard because the proceedings below indicate
that the district court reached its decision without reliance on the government’s
statements. Instead, the court became familiar with the brutality of Defendants’ crime
by presiding over their extensive change-of-plea hearings and by reviewing
Defendants’ detailed Presentence Reports. The court thus had an ample independent
basis for concluding that Defendants’ crime warranted a harsh sentence, leaving no
reasonable probability that the government’s alleged breach affected the outcome of
the sentencing.
Defendants next argue that the district court violated their due process rights
by not providing advance notice of (1) its intent to impose an upward sentencing
variance, and (2) the grounds upon which that variance was based. This court’s
precedent forecloses Defendants’ argument. In United States v. Christensen, 732 F.3d
1094 (9th Cir. 2013), this court held that “[a] district court is not required—either by
-4-

App. D-5
Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-1, Page 5 of 6

the Federal Rules of Criminal Procedure or by the Due Process Clause—to give
advance notice of its intent to impose a sentence outside the advisory Guidelines
range.” Id. at 1102. It also concluded that the district court “committed no error,
much less plain error, by failing to provide advance notice of the precise grounds upon
which the 19–month upward variance to [defendant’s] sentence was based.” Id.
In the present case, the district court considered the Guidelines range and then
applied an upward variance to impose sentences outside that range. Consistent with
Christensen, the court “[was] not required—either by the Federal Rules of Criminal
Procedure or by the Due Process Clause—to” give “advance notice of its intent to do
so,” or to “provide advance notice of the precise grounds upon which the . . . upward
variance . . . was based.” Id. There was thus no error entitling Defendants to relief.
Defendants next argue that the imposition of life sentences violated the Eighth
Amendment’s prohibition on cruel and unusual punishment. They principally rely on
Graham v. Florida, 560 U.S. 48 (2010), and Atkins v. Virginia, 536 U.S. 304 (2002).
The Supreme Court ruled in the first case that the Eighth Amendment “prohibits the
imposition of a life without parole sentence on a juvenile offender who did not
commit homicide.” Graham, 560 U.S. at 82. It ruled in the second case that the
Eighth Amendment forbids “the execution of mentally retarded criminals.” Atkins,
536 U.S. at 321. But neither Defendant in this case is a juvenile or mentally retarded.
In addition, both Defendants in this case committed a homicide and neither Defendant
-5-

App. D-6
Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-1, Page 6 of 6

has been sentenced to death. Graham and Atkins are consequently inapplicable to
Defendants’ case. Their Eighth Amendment claim is also without merit because life
imprisonment is the presumptive penalty for first-degree murder. See 18 U.S.C.
§ 1111(b) (“Whoever is guilty of murder in the first degree shall be punished by death
or by imprisonment for life . . . .”).
Defendants finally contend that their sentences were improperly influenced by
consideration of other crimes committed in the District of Oregon. They did not raise
this claim before the district court, however, so the plain-error standard of review is
again applicable. Defendants must therefore show a “reasonable probability” that the
district court’s consideration of other crimes affected the outcome of their sentencing.
See Gonzalez-Aguilar, 718 F.3d at 1189. The court, however, dismissed the other
crimes that it considered as “not . . . reasonably comparable” to Defendants’ crime.
It then explained that the need to impose a comparable sentence in this case was an
“academic” issue that was “[not] a factor that really provide[d] any help” in
determining the correct sentence. The consideration of other crimes thus appears to
have played little if any role in the district court’s sentencing decision, so Defendants
cannot prevail under the plain-error standard of review.
For all of the above reasons, WE AFFIRM the sentence in each case.

-6-

App. D-7
Case: 14-30080, 11/06/2015, ID: 9747313, DktEntry: 33-2, Page 1 of 5

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•

This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.

Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
Ź
A material point of fact or law was overlooked in the decision;
Ź
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
Ź
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 08/2013

1

App. E-1

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF OREGON

3
4
5
6
7
8

UNITED STATES OF AMERICA,

)
)
Plaintiff,
)
)
v.
)
)
TANA CHRIS LAWRENCE (1) and
)
ANGELEDITH SARAMAYLENE SMITH (2), )
)
Defendants.
)
__________________________________)

Case No. 3:12-CR-538-BR
April 16, 2014

Portland, Oregon

9
10

TRANSCRIPT OF PROCEEDINGS
(Imposition of Sentence)

11

BEFORE THE HONORABLE ANNA J. BROWN, DISTRICT JUDGE

12
13
14
15
16
17
18
19
20
21
COURT REPORTER:
22
23
24
25

AMANDA M. LeGORE, RDR, FCRR, CRR, CE
U.S. Courthouse
1000 SW Third Avenue Rm 301
Portland, OR 97204
(503)326-8184

App. E-2
Colloquy

134

1

THE COURT:

Thank you.

2

Please be seated.

3

This has been a very long day for the family members

(Pause.)

4

of Faron Kalama, for the defendants and the people who love

5

them, for the lawyers who have been living with this case since

6

it began, for all of the law enforcement and other officials

7

from the Warm Springs community who worked to bring Ms. Smith

8

and Ms. Lawrence to today.

9

longer by keeping you waiting.

10

And I apologize for making it

The truth is, the decision to impose sentence on

11

these young women is perhaps the most difficult judgment I've

12

ever had to render.

13

Faron Kalama was a 30-year-old member of the Warm

14

Springs tribe, and she was murdered on the Warm Springs Indian

15

reservation, in what is called Indian country under United

16

States law, here in the District of Oregon, on September 29th,

17

2012.

18

As her aunt, Ms. Celeste White Wolf accurately

19

described, this federal court has jurisdiction under the Major

20

Crimes Act over the prosecution of Ms. Smith and Ms. Lawrence,

21

who are also members of the Warm Springs tribe, for the crime

22

of Murder in the First Degree, for which each of the defendants

23

entered a timely guilty plea.

24
25

Their guilty pleas should be acknowledged as
important first steps for the community to address what is a

App. E-3
135

Colloquy
1
2

horrendous event in their history.
Ms. White Wolf is also right to bring the Court's

3

attention to the cultural losses the family has experienced by

4

virtue of the fact that Ms. Kalama's body was left abandoned in

5

the outdoors for days, in complete disrespect for community

6

values and the expectation that upon death a member of the

7

tribe would be properly sent to -- sent off in the manner the

8

culture required.

9

which unnecessarily added to the pain of the family.

10

And that, of course, did not happen here,

The cultural differences that exist between the Warm

11

Springs community and the rest of the District of Oregon are

12

not really at issue here today because Murder in the First

13

Degree is something anyone can understand.

14

precious right we each have.

15

Life is the most

And in this instance, it was taken from Ms. Kalama,

16

not in a sudden, quick event as with a firearm or a knife, but

17

over the course of an extended period of time when she was

18

brutally and repeatedly assaulted by each of the defendants and

19

by the juvenile co-defendant in -- in what can only be

20

described as torture.

21

The Court's duty today is to impose a sentence on

22

each of these two young women, Ms. Smith and Ms. Lawrence, who

23

each have their own tragic stories.

24
25

The requirement, as I noted earlier, is to impose a
sentence that is reasonable in law, that's defined as what

App. E-4
Colloquy

136

1

would be sufficient but not greater than necessary to

2

accomplish a number of purposes set out by statute.
So I must go through each of those purposes and try

3
4

my best to meet my obligation here for Ms. Smith and for

5

Ms. Lawrence, to ensure that the sentence imposed is indeed a

6

lawful sentence, one that is reasonable.
I'm required to begin with advice from the United

7
8

States sentencing guidelines.
For each of the two defendants, our United States

9
10

probation officer, Ms. Joni Eisenbrandt, has prepared a

11

presentence report.

12

opportunity to make legal objections to the content of the

13

report, there aren't any for me to resolve today.

Though each of the parties had an

14

As Mr. Gabriel noted, the legally correct starting

15

point for guideline analysis for each of the defendants is a

16

life sentence because that is the sentence mandated by law for

17

Murder in the First Degree.

18

Nevertheless, Ms. Eisenbrandt was required to and did

19

apply a guidelines analysis based on the seriousness of the

20

offense and aggravating factors such as the defendants' knowing

21

involvement of -- of the juvenile co-defendant and their

22

conduct in the knowing presence of children throughout this

23

brutal ordeal.

24
25

The Court does adopt Ms. Eisenbrandt's guidelines
analysis.

But, again, for a starting point, the guideline is

App. E-5
Colloquy
1

137

considered to be a life sentence.

2

That's where this analysis would end but for the fact

3

that the Government has made a motion under the Guideline 5K1.1

4

for a one-level departure, meaning a reduction from the

5

guideline range of life.

6

The motion is based on the cooperation of each of the

7

defendants to varying degrees.

8

guilty plea without the need for litigating what would be an

9

extraordinarily difficult case, and the fact that with the

10

promised cooperation of each of the defendants against the

11

other, the Government easily could have proved beyond any

12

reasonable doubt the elements of Murder in the First Degree as

13

to any defendant who chose not to follow through with that

14

promised cooperation.

15

Their resolution of the case by

It is always up to the Government to determine

16

whether such a motion should be made.

17

again, that had the Government not made the motion, the Court's

18

sentencing analysis would end with the guideline of life

19

imprisonment.

20

And so I emphasize,

The Government having made the motion, the Court is

21

required to consider it.

22

Government has emphasized here, I believe the motion is

23

warranted and -- and am granting it.

24

departure from the guidelines by one level, which takes us to a

25

resulting offense level of 41.

And under the circumstances, as the

That is, then, a

And the range there is 324 to

App. E-6
138

Colloquy
1

405 months.

2

And for those of you who appreciate time in terms of

3

years, a 324-month sentence is 27 years.

4

is 33 years and nine months, if my math is right.

5

A 405-month sentence

That is a guideline range and a starting point, then,

6

for the Court's consideration.

7

relieve the Court of the responsibility of considering any

8

sentence up to and including life.

9

Court a plea agreement, in each case, which authorized the

10

But it does not, by any means,

The parties bring to the

advocacy that each of the parties made.

11

And so with that advocacy and with a starting point

12

of the guideline range, I'm required to consider a number of

13

factors.

14

offense.

15

The first is the nature and the circumstances of the

Much has been said and written about those

16

circumstances, and I don't need to reiterate them here or

17

otherwise cause unnecessary emphasis to them.

18

sufficient to say that the murder of Faron Kalama was the end

19

result of many hours of extraordinary brutality each of the

20

defendants extended to her that, in my judgment, amounts to

21

torture.

22

But it is

This wasn't an incidental fight in the heat of the

23

motion.

24

would leave only to return again with one or the other taking

25

the lead in extraordinary violence.

It was prolonged.

It was repetitive.

Defendants

App. E-7
139

Colloquy

Her body, as Ms. White Wolf emphasized, was the best

1
2

evidence of the degree of brutality.

3

extraordinary blows.

4

caved in.

5

It bore evidence of

She was missing her eye.

Her face was

She was left unclothed, in the outdoors.
The nature and the circumstances of the offense could

6

not be more serious.

7

significantly in favor of a lengthy prison term.

8
9
10
11

And so that is a factor that weighs

The Court is to consider a sentence that would
reflect the seriousness of the offense, to promote respect for
the law, and to provide for just punishment.
I am certain that in the unusual circumstances of

12

this case, those factors really go together with the nature and

13

circumstances of the offense.

14

nature warrants very serious punishment because without serious

15

punishment for this kind of depraved behavior, there isn't any

16

reason to respect the law.

17

acknowledge this conduct as among the most serious of criminal

18

behavior, then our laws do not deserve respect.

19

course, my duty here is to try to promote that and to promote

20

just punishment.

21

flexible term, depending upon one's perspective.

22

An offense of this egregious

If we are not prepared to

And, of

Just punishment is an extraordinarily

The sentence to be imposed today is also required to

23

be adequate to deter criminal conduct, not just future criminal

24

conduct potentially by each of these individuals but by others.

25

Mr. Coan argued that general deterrence is really a

App. E-8
140

Colloquy
1

misnomer.

2

that a sentence imposed in any particular case, such as this

3

case, would have any particular deterrent effect on any

4

particular individual, and that may be so.

5

That we don't have science to support the contention

So the need to deter others, I think, becomes

6

secondary to determining what sentence is sufficient to reflect

7

the nature and circumstances of this horrendous crime and the

8

need to have a sentence that meets its characteristics.

9

I'm required, as well, to fashion a sentence that is

10

individualized to each of these young women; who though very

11

different, have some significant factors in common.

12

Both experienced violence in their youth and in their

13

community.

14

abuse in their homes and in their community.

15

Ms. Lawrence was born with limitations Ms. Smith doesn't have

16

and Ms. Lawrence suffered extraordinary sexual abuse at the

17

hands of her own uncle, Ms. Smith had her own very harsh

18

upbringing with alcohol and drug abuse in the home and, up to

19

almost the day of her conduct here, serious domestic violence

20

at the hands of her husband.

21

Both experienced and engaged in drug and alcohol
Although

So while they are individual and while each has her

22

own strengths and limitations, they both share a very tragic

23

pattern.

24

same.

25

And, indeed, Faron Kalama experienced much of the

The theme was resonant today with people speaking of

App. E-9
141

Colloquy
1

conditions at the Warm Springs community and the need for the

2

community to change and the need for there to be resources and

3

support for those who want to address issues of mental health

4

and domestic violence and drug and alcohol abuse.

5

This case can't be the mechanism that could even

6

attempt to solve those weighty problems.

7

it might be the catalyst for leaders in the community, many of

8

whom spoke here today, to try again to focus community

9

attention on this extraordinary commonality between victim and

10

One could hope that

murderer.

11

The distress that each of the defendants experienced,

12

throughout her life, each of them, and the victim herself, is a

13

common and repeated factor that we see in cases from -- from

14

Warm Springs and in Indian country.

15

is prevalent and seems to be unceasing.

16

The alcohol and drug abuse

So when considering the specific history and

17

characteristics of the defendants and trying hard to be

18

individualizing them, I come back to the observation that they

19

have more in common than separates them.

20

I have given great thought and concern to the

21

arguments made on Ms. Lawrence's behalf.

22

with which she was born and the abuse to which she was exposed

23

throughout her upbringing somehow makes her less culpable and

24

deserving of less punishment than Ms. Smith.

25

That the limitations

I think it's fairly conceded that Ms. Smith provoked

App. E-10
142

Colloquy
1

the idea of assaulting Faron Kalama.

2

involvement of Ms. Lawrence.

Ms. Smith instigated the

3

If we were talking about a backyard fight, where

4

things ended after a few punches, then, clearly, Ms. Smith

5

would be punished more severely than Ms. Lawrence, but that's

6

not what happened here.

7

Each of the two defendants engaged deliberately and

8

repeatedly in their own conduct, each of which caused pain and

9

harm to Ms. Smith [sic], and in the course of these repeated

10

assaults, they caused her death, both of them.

11

And as sympathetic as one can be to this sorry state

12

of affairs that has been described in -- today, that

13

Ms. Lawrence wanted help, Ms. Lawrence deserved help,

14

Ms. Lawrence sought help and none was there for her, in the end

15

it was Ms. Lawrence voluntarily drinking alcohol, and Ms. Smith

16

doing the same thing, that allowed them somehow to put

17

themselves in a situation where they beat Faron Kalama to

18

death.

19

I have considered the individual history and

20

characteristics of the defendants.

21

women, and they each have their own promising characteristics.

22

But in this inquiry, focusing on what they did that day, they

23

are equally culpable in my judgment.

24

sentence that is longer in length for Ms. Smith than

25

Ms. Lawrence is warranted here because of that complete joint

And they are individual

And I do not believe a

App. E-11
Colloquy

143

1

undertaking that amounted to the torture and murder of

2

Ms. Kalama.

3

Now, Ms. Winemiller made the point every way she

4

could that the defendants did not start out intending to murder

5

Ms. Kalama.

6

But whatever that means, it certainly does not imply anything

7

other than brutality.

They intended to beat her, and beat her

8

they did, repeatedly.

One wonders how she managed to survive

9

as long as she did.

10

They intended to beat her dirty, are the quotes.

Somewhere along the way, when there were

11

opportunities for one or the other or both to retreat, neither

12

did.

13

is fair to infer.

14

defendants and the juvenile offender and Ms. Kalama taking her

15

last breaths in the back of a van, and then being dumped.

More alcohol, more encouraging one to the other, I think,

16

And we end up with the two of these

So they were in it together, after Ms. Smith

17

recruited Ms. Lawrence.

18

culpable.

19

judgment, should be the same sentence imposed for the other.

20

And, in my judgment, they are equally

And whatever sentence is imposed for one, in my

I'm required to consider, also, what sentences have

21

been imposed in cases that are similar, and to avoid

22

unwarranted disparity.

23

that is different than a sentence imposed in other cases of

24

Murder in the First Degree, the difference has to be justified.

25

Meaning, if a sentence is imposed here

So we start from first trying to analyze whether the

App. E-12
Colloquy

144

1

other cases of Murder in the First Degree that have been

2

brought to my attention, all of which arose on the Warm Springs

3

reservation, whether they are similar to these facts; and, if

4

so, the sentences imposed in those cases should affect the

5

decision I make today.

6

Unfortunately, I know a lot about several of those

7

cases because I had the responsibility of imposing those

8

sentences.

9

name of the charge.

And I do not see much similarity, other than the
I don't see anything similar about the

10

circumstances of this case and other Murder I sentences imposed

11

by this Court or other judges in this district.

12

isn't anything similar.

13

There really

I asked for guidance from the Probation Office to

14

determine whether there were life sentences imposed in other

15

cases or lengthy prison sentences; again, to try to evaluate

16

what length of a prison term would be sufficient in these

17

circumstances.

18

were a number of cases identified, not one of which resulted in

19

death but involved other kinds of circumstances.

20

career offender, so someone with a lifelong pattern of using

21

firearms and violence.

22

and carjackings.

23
24
25

And, as has been shared with the parties, there

An armed

Bank robberies that involved firearms

Pornography cases with extreme facts.

So I -- I agree with Mr. Gabriel that none of those
cases are particularly comparative to these circumstances.
So I come back to the overall charge, which is what

App. E-13
145

Colloquy
1

sentence is sufficient and what is greater than necessary.

2

In the analysis, the Court also has to take into

3

account the need to provide a defendant with needed educational

4

or vocational training, medical care, or other correctional

5

treatment in the most effective manner.

6

with a much less serious offense, that would then trigger

7

looking into what kind of community-based treatment programs

8

would be suitable for either Ms. Lawrence or Ms. Smith to help

9

them with their many personal needs.

10

If we were dealing

But, in the end, and when one balances all of these

11

factors, they are simply overshadowed by the nature and

12

circumstances of the offense, the seriousness of the offense,

13

and the need that this sentence that I am about to impose --

14

the need for that sentence to reflect the seriousness of the

15

conduct at issue here.

16

Congress imposed a mandatory life sentence for Murder

17

in the First Degree for a reason.

18

perspective of our lawmakers that when Murder in the First

19

Degree is committed, life ought to be the sentence.

20

That reflected the official

The Government permitted, through its motion, for a

21

downward departure, the Court to consider lesser sentences.

22

And, believe me, I have.

23

agree that even the sentence recommended by the Government is

24

sufficient here, in light of the seriousness of the conduct at

25

issue.

But in good conscience, I do not

And I come to the conclusion very reluctantly, because

App. E-14
146

Colloquy
1

of the obvious sympathy one would feel for these two young

2

women based upon the background that they present, not the

3

conduct in which they engaged in, that they ought to -- there

4

ought to be a way.

5

to redeem themselves in their community.

6

There ought to be an opportunity for them

Just as they can't undo that day, I can't change the

7

circumstances that face the Court.

8

duty, today, to impose a life sentence for each of the two

9

defendants.

And I believe it is my

So that will be the judgment of the Court.

10

Ms. Smith, Ms. Lawrence, would you stand, please.

11

So for all of those reasons, it is the judgment of

12

the Court that each of you serve a life sentence for the murder

13

of Faron Kalama.

14

The statutory assessment required by law is imposed.

15

There is not any need for the Court to consider conditions of

16

supervision because a life sentence is imposed for each of the

17

defendants.

18

We will recess these proceedings and have another.

19

But before you leave, I'll set a new hearing date for

20

restitution issues to be addressed by the Court.

21

If the parties are able to resolve the matter of

22

restitution, then we can potentially avoid another court

23

appearance.

24
25

Mr. Gabriel, the party -- the defendants waived their
rights to appeal, as part of the plea agreement, and I believe

App. E-15
147

Colloquy
1

that waiver extends to the sentence just imposed.

2

to ask whether the Government concurs with that.
MR. GABRIEL:

3
4

THE COURT:

Of course,

I am going to, but I want the

Government's statement on that issue.

7
8

The Government does concur.

the Court still needs to advise them of their --

5
6

And I want

MR. GABRIEL:

I believe that your sentence is

included in their appellate waiver.

9

If the Court could also inquire whether the

10

defendants have had an opportunity to review the PSR, that

11

would be helpful.

12
13
14

THE COURT:

I will do that, and I thank you for that

reminder.
The -- Ms. Smith and Ms. Lawrence, when you pled

15

guilty, you gave up the right to appeal to a higher court the

16

fact that I allowed to you plead guilty, found you guilty, and

17

the fact that I would be sentence -- sentencing you, and the

18

sentence imposed.

19

Now, if either of you disagrees with that waiver, you

20

certainly have the right to file an appeal anyway, and the

21

Government will contest that issue.

22

make that decision.

23

Your lawyers will help you

But to appeal, you will need to file a notice of

24

appeal within 14 days of the entry of the judgment of

25

conviction.

App. E-16
Colloquy

I'll be doing that probably tomorrow or Friday, so

1
2

within that 14-day period.

3

that.

4
5

Each of your lawyers is aware of

If you want to protect any right to appeal, you'll
have to file a notice in that time period.

6

Ms. Smith, do you understand?

7

DEFENDANT SMITH:

8

THE COURT:

9

DEFENDANT LAWRENCE:

10

148

THE COURT:

Yes, your Honor, I understand.

Ms. Lawrence?
Yes.

And Mr. Gabriel reminded me that I needed

11

to ask you whether you had actually seen the presentence report

12

that the probation officer prepared.

13

Have you, Ms. Smith?

14

DEFENDANT SMITH:

15

THE COURT:

16

DEFENDANT LAWRENCE:

17

THE COURT:

18

Yes, your Honor, I have.

Ms. Lawrence, have you?

And did you get a chance to discuss it

with Mr. Coan?

19

DEFENDANT LAWRENCE:

20

THE COURT:

21

DEFENDANT SMITH:

22

THE COURT:

23
24
25

Yes.

Yes.

And did you discuss it with your counsel?
Yes, your Honor.

All right.

Is there anything else for

this afternoon, other than setting a new date for restitution?
MR. GABRIEL:

We move to dismiss all remaining counts

with respect to these two defendants.

App. E-17
149

Colloquy
1

THE COURT:

2

remaining counts are dismissed.

3

an issue of designation.

4

Ah, yes.

Well, indeed.

All of the

And I do want to also address

Mr. Coan argued that Ms. Lawrence should receive a

5

designation to a medical facility.

6

women are admitted in either Kentucky or -- was it Texas?

7

MR. COAN:

8

THE COURT:

9

One of the two for which

Yes, your Honor.
Ms. Lawrence suffers from diagnosed

mental health disorders which have gone untreated for far too

10

long.

11

designated to a medical center for continued diagnostic work

12

and treatment, so that the treatment course that has been

13

started will continue uninterrupted.

It is the Court's affirmative recommendation that she be

14
15

Ms. Winemiller, is there a recommended place of
designation for your client?

16

MS. WINEMILLER:

Your Honor, we had talked about

17

Dublin.

18

matrix suggests that's still an appropriate placement.

19

like a chance to review that.

20

THE COURT:

21
22

I think that's where she would like to go, if the BOP
I would

Well, I can make the recommendation as

you request, and I will.
MS. WINEMILLER:

But what I'm saying is if in fact

23

she isn't eligible to go there, we would like to be able to

24

come back to the Court and make a different recommendation.

25

THE COURT:

All right.

Well, I have the authority to

App. E-18
150

Colloquy
1

continue to make recommendations because none of them are

2

anything more than just that anyway.

3

I'll recommend Dublin, if the defendant's acceptable

4

by BOP.

5

recommendations in the event she is not.

6
7
8
9

And I'll reserve the authority to make additional

How much time do you recommend we allow for the
setting of restitution here?
MR. GABRIEL:

60 days, 45 days?

I think we can provide the Court with a

joint status report within 45 days.

And if we don't have an

10

agreement by then, that will give us an additional 45 days to

11

set a hearing.

12

THE COURT:

All right.

Let's have a joint status

13

report, then -- one report by all counsel, on one document,

14

stating your positions as to restitution.

15

Monday, June 2.

16

That's due on

And in the event a hearing is required, I'll set that

17

now so that we save the time for it, for Thursday, July 10, at

18

nine o'clock.

19

Any problem with that at the moment?

20

MR. COAN:

21

THE COURT:

22

need to address this afternoon?

23

MR. GABRIEL:

24
25

No, your Honor.
All right.

Is there anything else we

You granted the Government's dismissal

of those counts?
THE COURT:

I did.

Thank you.

App. E-19
151

Colloquy
1

All right.

We're in recess.

2

MR. GABRIEL:

3

THE COURT:

4

(Conclusion of proceedings.)

Thank you, your Honor.

Good afternoon.

5
6

--oOo--

7
8

I certify, by signing below, that the foregoing is a correct

9

transcript of the oral proceedings had in the above-entitled

10

matter this 21st day of April, 2014.

11

original signature or conformed signature is not certified.

12

further certify that the transcript fees and format comply with

13

those prescribed by the Court and the Judicial Conference of

14

the United States.

A transcript without an

15
16

/S/ Amanda M. LeGore
____________________________________

17

AMANDA M. LeGORE, RDR, CRR, FCRR, CE

18
19
20
21
22
23
24
25

I

